<html>
<title> - U.S. POLICY IN NORTH AFRICA</title>
<body><pre>[Senate Hearing 114-825]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-825
 
                      U.S. POLICY IN NORTH AFRICA

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       
       


       Available via the World Wide Web: https://www.govinfo.gov
       
       
       
                U.S. GOVERNMENT PUBLISHING OFFICE 
 38-542 PDF               WASHINGTON : 2019       
       
       
       


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. Benjamin L. Cardin, U.S. Senator From Maryland..............     2
Haim Malka, Deputy Director and Senior Fellow, Middle East 
  Program,
  Center for Strategic and International Studies, Washington, DC.     3
    Prepared Statement...........................................     5
William Lawrence, Visiting Professor of Political Science and 
  International Affairs, Elliott School of International Affairs, 
  The George Washington University, Washington, DC...............    11
    Prepared Statement...........................................    13

                                 (iii)

  


                      U.S. POLICY IN NORTH AFRICA

                              ----------                              


                      WEDNESDAY, NOVEMBER 4, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Risch, Flake, Gardner, Perdue, 
Cardin, Shaheen, Murphy, and Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. Call the Foreign Relations meeting to order 
and thank you our witnesses for being here.
    Today's hearing is the fifth in a series of hearings we 
have held looking at the role of the United States in the 
Middle East and North Africa. We have looked at Iraq and Syria, 
the Arabian Peninsula, the refugee crisis, and have heard from 
the administration. Today gives us an opportunity to look at 
the region in which the Arab Spring began: North Africa.
    Almost 5 years after widespread protests began in Tunisia 
and spread across the region, North Africa remains a fragile 
and volatile region. Five years later, most of the region's 
economies are in serious trouble, violent insurgencies and 
terrorist groups have spread, and governance ranges from 
democracy to autocracy.
    Tunisia, which may hold up as a model for the region, is 
struggling on both security and economic fronts. Tunisia 
deserves the admiration of all of us for what they have done, 
and they have received it through a Nobel Peace Prize. But, I 
would like to hear the views of our witnesses on what steps the 
United States should be taking in order to ensure Tunisia's 
continued success.
    Libya, a country in the middle of a civil war, has been 
working through a U.N. process for a unity government for over 
a year at this point. I know the Libyan Chief of Mission is in 
the audience today, and we welcome her. And I would like to 
recognize the frustrations she must feel as terrorism and 
humanitarian crises spread across Libya.
    In October, the U.N. Representative announced an agreement, 
which the two parties have not yet signed. We have been hearing 
for a year that U.S. policy in Libya is to support the U.N. 
process as the process drags on without resolution. I hope our 
witnesses can weigh on what steps we should be taking.
    Egypt, a country that has seen some of the worst political 
turmoil in the region, continues to play a vital role as home 
to the largest population in the Arab world and their origin of 
many ideas and movements throughout the Middle East. But, U.S. 
policy there seems adrift, as it is in much of North Africa. I 
hope our witnesses today--I am sure you will--can help us focus 
on a U.S. strategic interest, what they are in North Africa, 
and what steps we should be taking to reach them.
    I want to thank you again for appearing before the 
committee, and with that turn to our distinguished ranking 
member for his comments, and then I look forward to your 
testimony.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, thank you.
    We have had a series of hearings focused on the Middle 
East. Obviously, it is an area of great importance to the 
United States. It has extreme challenges, and we very much want 
this committee to be engaged in our policies in the Middle 
East.
    Now, northern Africa is very important to that. Although it 
has not been in the headlines as much as some of the other 
areas of the Middle East, it holds out tremendous consequences 
for U.S. interests.
    So, I thank you very much for convening this hearing, and I 
thank our two witnesses for being here. As the chairman pointed 
out, Arab Spring started in northern Africa. In Tunisia, a 
street vendor set himself afire, the Jasmine Revolution, and 
now they are getting attention because of Nobel Peace Prize to 
the National Dialogue Quartet. But, Tunisia's stability is 
being threatened. Its democratic reforms and economic stability 
have been impacted by terrorism, affecting the country's 
overall stability.
    In Libya, we have a civil war. It is not uncommon for that 
region to have civil wars. There is no military solution, here. 
The political solution is going to be critical, and we welcome 
our witnesses' views as to how we are progressing on achieving 
that political accord for the future of Libya.
    In Egypt, a critically important country to the United 
States, President Sisi has had his challenges. There is no 
question about that. But, the one lesson I think we have 
learned here is, stability in that critically important country 
can only be reached if there is political reform that provides 
human rights for the people of Egypt. And we welcome your views 
in that regard.
    Morocco and Algeria, two countries whose political 
stability did not really change much during Arab Spring, were 
able to weather that type of challenge, but they do have other 
challenges, no question. Political reform is still very much 
critically important to both of those countries. And the 
western Sahara region still has yet to have the type of 
stability that is necessary for the people of that region and 
its political future.
    So, Mr. Chairman, as we look at northern Africa, we know 
that we have challenges. We have challenges dealing with 
terrorism. And how do we engage the countries of that region in 
an effective counterterrorism strategy? We have a problem of 
young people. The young people need economic opportunity, and 
they want political reform. How do we channel that energy that 
exists in northern Africa in a positive way, considering the 
U.S. objectives?
    So, for all those reasons, I think this hearing is 
particularly timely, and I look forward to hearing from our 
witnesses.
    The Chairman. Thank you, Senator Cardin.
    We will now turn to our witnesses. Our first witness is 
Haim Malka, the deputy director and senior fellow for the 
Middle East Program at the Center for Strategic and 
International Studies.
    We thank you for sharing your wisdom with us today.
    And the second witness is Dr. William Lawrence, a visiting 
professor of political science, International Affairs, at the 
Elliott School of International Affairs of the George 
Washington University. Quite a title.
    Dr. Lawrence. Thank you.
    The Chairman. We appreciate you being here, and I hope you 
will summarize your comments in about 5 minutes. If you have 
any written materials, it will be, without objection, part of 
the record.
    And, with that, Mr. Malka, if you will begin, we would 
appreciate it.

  STATEMENT OF HAIM MALKA, DEPUTY DIRECTOR AND SENIOR FELLOW, 
  MIDDLE EAST PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                    STUDIES, WASHINGTON, DC

    Mr. Malka. Thank you. Good morning, Mr. Chairman, Ranking 
Member, and members of the committee.
    It is an honor to sit here before you to speak about North 
Africa, a region which is undergoing historic change and poses 
risks and opportunities for the United States.
    You have my written testimony, already, where I detail the 
importance of North Africa to core U.S. interests, analyze the 
state of play in the region, and set forth ideas for U.S. 
policy, moving forward. Rather than rehash that written 
statement, what I thought would be more helpful was to share my 
approach to North Africa with you and focus on Tunisia and 
Libya, two countries that highlight the risk and opportunity 
for the United States.
    I like to think about North Africa as a long-term 
investment. When I first came to Washington, DC, in 2001, the 
area between the Navy Yard and South Capitol Street was pretty 
much a wasteland. It was full of empty lots, it was known for 
drugs, crime. Few people wanted to go there. But, despite 
seeming marginal to the city, and despite its many problems, 
the area held real promise. In 2004, Major League Baseball and 
the city of D.C. had a vision and were committed to building a 
ballpark there.
    Fast-forward a decade, and the area around Nationals 
Stadium has created jobs, generated new business, housing, 
improved the city's security, and has become an important 
symbol of the city's progress. Vision, investment, risk, 
commitment, all changed the fate of that corner of the city in 
the Nation's Capital.
    We should be thinking about North Africa as a similar 
investment for the United States. The Maghreb states of North 
Africa have been marginal to U.S. interests for decades, but, 
since 2011, the region has become central to many of the global 
issues we already care about and which you have mentioned at 
the beginning of this hearing. Most importantly, security and 
counterterrorism, political change in the Arab world, and 
stability in Europe, Africa, and the Middle East.
    I would like to briefly outline three important factors 
shaping the region which directly affect U.S. interests.
    First, Libya has become the Islamic State's most important 
base outside of Syria and Iraq, and is emerging as a new hub 
for regional jihad. The fight between two competing governments 
in Libya creates a security vacuum that the Islamic State 
exploits. Islamic State is now recruiting in North Africa, and 
marketings Libya as a more accessible destination for jihad 
than Syria. An Islamic State several hundred miles from the 
shores of Europe would be devastating to U.S. interests and the 
surrounding countries.
    Second, Tunisia is the best opportunity for an Arab State 
to transition from dictatorship to more representative and 
accountable government. The United States has been promoting 
political change globally and in the Arab world for decades. 
Helping Tunisia succeed would not only achieve long-standing 
U.S. objectives, but could be the most effective countermeasure 
to the jihadist narrative. Despite many positive steps forward, 
Tunisia remains vulnerable to political polarization, economic 
stagnation, terrorism, and deep socioeconomic challenges which 
fuel radicalism, especially among young people.
    Third, it is important to understand that what happens in 
North Africa has an impact far beyond its borders. The region 
is deeply networked into Europe, the Middle East, and sub-
Saharan Africa. Protests in Tunisia, as we already mentioned, 
spread throughout the Arab world. Jihadists from every 
neighboring region transit through Libya for arms, weapons, and 
sanctuary. And smuggling networks traffic weapons, goods, and 
people from across Africa through the region and onto Europe. 
This has created a new humanitarian disaster and refugee 
crisis, which is straining European infrastructure, policing, 
and fanning the flames of nationalist politics in Europe.
    Now, there is no blueprint for how to meet these 
challenges, but there are several policy considerations and 
conclusions that can guide a more effective U.S. policy.
    First, we must continue to invest in American diplomacy. 
U.S. engagement makes a difference, especially during pivotal 
moments. By extension, when the United States remains on the 
sidelines or unfocused, other governments fill the void and 
often pursue policies that undermine U.S. interests and 
perpetuate conflict. As a positive example, the U.S. Ambassador 
to Tunisia at the time played an important role at critical 
moments in Tunisia's transition, and helped make the difference 
between political compromise and more divisions and violence. 
In Libya, despite the many challenges that we face, the United 
States should continue pushing for a unity government, and it 
should consider, with the EU, more targeted sanctions against 
those Libyans in both governments that oppose the unity accord.
    Second, we should be prioritizing investment and assistance 
to at-risk countries that show potential; most importantly, 
Tunisia. The importance of Tunisia's success requires a more 
consistent and robust aid package. Fully funding the 
administration's aid request for FY 16, rather than cutting it, 
would send an important message of U.S. commitment to Tunisia. 
Speeding up the delivery of eight Black Hawk helicopters, which 
is being delayed, would also help Tunisia fight terrorism more 
effectively. At the same time, it is important to remember not 
to oversecuritize our aid and partnership with Tunisia. 
Security is a crucial component, but it must be part of a 
comprehensive strategy.
    Third and finally, we have to have realistic expectations 
about what is achievable in the short term. Many of the current 
challenges facing the region are chronic problems that do not 
have easy solutions. In the meantime, the security environment 
will likely deteriorate before it improves. Having realistic 
expectations about what is achievable in the short to medium 
term will help sustain a more effective policy.
    Mr. Chairman, Mr. Ranking Member, other members of the 
committee, this is a pivotal moment in the region. To reap the 
benefits of more effective engagement in North Africa, the 
United States must take a long-term investing approach. We need 
an investment strategy that sees the opportunity, clearly 
identifies our interests and objectives, acknowledges 
manageable risks, and has the staying power to ride out the 
inevitable fluctuations. If we stay that course, we position 
ourselves to ultimately strengthen American interests and to 
reap dividends long into the future.
    Thank you.
    [The prepared statement of Mr. Malka follows:]

                    Prepared Statement of Haim Malka

    Mr. Chairman and members of the committee, it is an honor to talk 
with you about U.S. policy in North Africa. In a time of great historic 
change and uncertainty, North Africa poses both perils and 
opportunities for the United States. Future trends in this region will 
not only affect the people living there, but will also deeply affect 
global U.S. interests.
    The Maghreb states of North Africa have been marginal to U.S. 
strategy for decades, yet changes in the region since early 2011 make 
it increasingly central to a wide range of U.S. interests. These 
include: security and the fight against violent extremism, political 
reform in the Arab world, and U.S. security and economic interests in 
Europe, Africa, and the Middle East. The U.S. Government has 
acknowledged these shifts in North Africa through modest increases in 
foreign assistance, most importantly to Tunisia. The Tunisian people 
inspired millions after deposing a longtime dictator, and set in motion 
tectonic shifts across the Arab world. In my judgment, however, U.S. 
engagement has not yet matched the importance of the Maghreb. We ignore 
the region at our own risk.
    Three core factors explain U.S. interests in North Africa:
(1) Geography
    North Africa borders three regions that are vital to the United 
States: Europe, Africa, and the Middle East. Trends in the region 
affect everything from Europe's migration crisis to U.S. forces in the 
Mediterranean to the safe passage of shipping through the Suez Canal.
    The sheer volume of illegal migrants transiting through North 
Africa on their way to Europe is not only a humanitarian disaster, but 
it is straining infrastructure, budgets, and security in Europe. This 
trend could also strengthen extreme nationalist political forces in 
Europe. It challenges political stability in Europe and NATO's 
credibility as an effective collective security institution.
    North Africa is also deeply intertwined with sub-Saharan Africa 
through diplomatic, trade, military, and religious ties. Moreover, vast 
smuggling networks which traffic in goods and people connect North 
Africa with Europe, the Middle East, and sub-Saharan Africa. When 
Malian mercenaries on Muammar el-Qaddafi's payroll fled Libya in 2011, 
they filled the ranks of militant groups in Mali. The political 
infighting that ensued led to al-Qaeda's takeover of northern Mali in 
mid-2012. Moreover, insecurity in North Africa directly affects 
developments in Sahelian countries where the United States has 
identified key security threats--for example in Niger and Chad, where 
U.S. forces are helping to build more effective counterterrorism forces 
to battle Boko Haram and other militant groups.
    Turning to the Middle East, while many see North Africa as marginal 
to the region, it is clear that what happens in the region is 
increasingly important to the Middle East's core. The Arab uprisings 
that swept across the region began in North Africa, and the 
governmental responses--both cracking down in the case of Egypt, and 
exploring more democratic openness in the case of Tunisia--have their 
locus in North Africa.
    North Africans from Tunisia and Morocco especially are globally 
networked, primarily through expatriate communities in Europe, but also 
throughout the rest of North Africa and the Middle East. These networks 
transmit what happens in those countries far beyond their borders. The 
most worrying negative example of this is the large numbers of young 
Tunisians and Moroccans fighting with the Islamic State group (ISG) and 
jihadi-salafi militias in Syria, Iraq, and Libya.
    Since 2011, Arab governments and Turkey have noticed these 
connections, and they have played a more active role in the region. The 
United Arab Emirates (UAE), Saudi Arabia, Qatar, and Turkey have been 
the most assertive outside actors in the region. They seek to harness 
regional alliances to protect their core national interests and expand 
their spheres of influence at a time of greater regional polarization 
and conflict. Morocco for example, is now participating in the anti-ISG 
coalition in Syria and the Saudi-led military coalition in Yemen. 
External actors are also more willing than ever to act independently 
and expend significant political and financial capital to influence 
political outcomes in North Africa. Some, like the UAE, have even 
launched independent military air strikes in Libya. That Arab 
governments in the gulf see the region as central to the future of the 
Middle East should further alert us to its importance.
(2) Terrorism
    Libya is the ISG's most important base outside of Syria and Iraq, 
and it is emerging as a hub for jihad. Thousands of extremist fighters 
have come to Libya, where they train and network. Some trained fighters 
then return home, where they pose a security risk and launch terrorist 
attacks. An Islamic State outpost in the southern Mediterranean--only 
100 miles from European shores--threatens American security and 
economic interests, puts neighboring states at risk, and makes it 
unlikely that a stable political order and economic development will 
emerge in Libya in the near future.
    According to a U.N. Working Group, the Islamic State commands 
approximately 3,000 fighters in Libya, mostly in its base in Sirte. 
Almost half of those are believed to be Tunisian, but there are 
Moroccans, Sudanese, Nigerians, and other nationalities joining as 
well. Since revolutionaries overthrew the Qaddafi regime in August 
2011, Libya has served as a training ground and transit point for 
Tunisians and other North African jihadists on their way to Syria and 
Iraq. While Syria remains the main destination for jihadi fighters, in 
time, Libya could eclipse Syria as the primary destination for 
jihadists from North Africa, Europe, and sub-Saharan Africa.
    Evidence on social media suggests jihadists are debating the merits 
of joining the Islamic State in Libya versus Syria and Iraq. For North 
Africans and for many Europeans, Libya is closer and easier to reach 
than Syria. Libya shares 2,700 miles of land borders with six 
neighboring states. (By comparison, the U.S.-Mexico border is 2,000 
miles long.) Crossing porous borders, especially from Tunisia and 
through the Sahara Desert, can be perilous, but is relatively 
straightforward.
    Terrorists in Libya often do not stay in Libya. ISG operatives in 
Libya have already struck Western tourists in neighboring Tunisia, 
undermining its security and economy. Not only are jihadists from 
across North and sub-Saharan Africa joining the ISG in Libya, but 
weapons from the conflict have reached insurgents in Egypt's Sinai 
Peninsula as well as in the Gaza Strip. Putting this into perspective 
it is important to note that al-Qaeda was able to wreak havoc from its 
isolated base in the Afghan mountains. A jihadi stronghold off the 
shores of Europe poses direct long-term threats to U.S. interests.
    Libya's role in regional and global jihad is not new. Libyans 
formed jihadi-salafi groups in the 1990s and 2000s, which fought 
alongside al-Qaeda in Afghanistan and later in Iraq. Following the 
overthrow of the Qaddafi regime in August 2011, many former jihadists 
returned to Libya and took advantage of the security vacuum, lack of 
government consensus, plentiful arms, and pools of young idle men. 
Libya quickly became a transit point for North African jihadists to 
train before reaching Syria, and an important hub for weapons, 
training, and sanctuary.
    Algerian terrorist mastermind Mokhtar Belmokhtar's group transited 
through Libya on its way to attack Algeria's In Amenas gas facility in 
January 2013, where it killed 40 people. As fighting and diplomacy in 
Syria begin to shift, more North African, sub-Saharan African, and 
European jihadists could seek to join the ISG in Libya. Their presence 
poses a long-term threat to Mediterranean shipping, border security in 
North Africa and the Mediterranean, tourism, economic growth, and 
political stability.
    Terrorism is not only a central problem for Libya. The rise of 
terrorist violence in neighboring Tunisia, which shares a 275-mile 
border with Libya, has been a persistent threat. Tunisia's Ansar al-
Sharia leadership fled to Libya and regrouped there after it was banned 
in the summer of 2013. Tunisian ISG members who were trained in Libya 
carried out attacks against Westerners at the Bardo Museum in Tunis in 
March 2015 and at a beach resort in Sousse in June 2015, killing more 
than 50 people combined. The attacks undermined Tunisia's security and 
weakened its economy, which relies on tourism for approximately 7 
percent of its GDP.
    Tunisia has its own domestic terrorism problem, even without 
spillover from Libya. By most accounts Tunisians make up the single 
largest foreign group of fighters in Syria and probably also in Libya. 
More than 4,000 Tunisians have joined jihadi groups in Syria since 2011 
out of an estimated 30,000 foreign fighters. That is roughly 13 percent 
of foreign fighters in Syria from a relatively small country of only 11 
million people. There is no single driver of radicalization. Young men 
are attracted to radical groups for a range of ideological, social, 
financial, and criminal reasons. As long as the deeper socioeconomic 
issues driving radicalization persist including youth marginalization, 
unemployment, and a broader sense of humiliation and despair, Tunisians 
will continue to join radical groups and pose a long-term challenge to 
the country's development.
(3) Political change in the Middle East
    Tunisia is an important example of how an Arab country can 
transition from autocracy to more representative and accountable 
government. Success stories are few, but Tunisia is a strong candidate 
to be one of them. Politics seem to be bringing people together out of 
necessity, and the population seems overwhelmingly committed to change 
through politics rather than through violence.
    For more than a half-century, the United States has promoted good 
governance and reform globally, and in the Middle East and North Africa 
in particular. While the emphasis has shifted from administration to 
administration, promoting accountable and representative government 
remains a core objective of U.S. foreign policy. Congress has approved 
tens of billions of dollars in aid to meet that objective. Tunisia, 
despite its numerous challenges, remains the best opportunity for 
building a new kind of compact between an Arab Government and its 
citizens. In many ways, it has become a test case for U.S. commitment 
to the idea of reform, and other governments are watching.
    Moreover, the United States has a unique opportunity to build a new 
kind of partnership with an Arab country. Over time Tunisia could 
become an important asset and partner in the region in counterterrorism 
cooperation, naval security, peacekeeping, and trade.
    But it is much too early to celebrate. While Tunisia has made 
important strides forward, as recognized by the Nobel Prize Committee, 
it remains vulnerable to a host of threats and challenges including: 
political polarization; radicalized youth; deep socioeconomic problems; 
economic stagnation and corruption; and a wide gap between the 
country's coast and underdeveloped interior, any of which could 
precipitate crises that would make democratic consolidation more 
difficult.

    With all this at stake, it is worth identifying the most important 
trends affecting North Africa right now. I would like to draw your 
attention to three key points concerning the situation in the area.

    (1) Libya's political conflict creates a security vacuum exploited 
by the Islamic State group and other militants, which destabilizes 
every country in the region. Competition and rivalry between Libya's 
two governments is the biggest factor contributing to the ISG's 
expansion in Libya. These two competing governments--one based in 
Tripoli in the west and the other (recognized by the United States and 
Western governments) in the eastern town of Tobruk--are more interested 
in fighting each other than cooperating to defeat the ISG. Without a 
unified government Libya will be unable to begin the long process of 
building state institutions, renewing its oil exports, reviving its 
economy, and disarming hundreds of militias that undermine the idea of 
a unified state.
    The disintegration of the Libyan state is one of North Africa's 
biggest challenges. The conflict is largely a question of legitimacy. 
Those who fought Qaddafi claim revolutionary legitimacy. Some claim 
legitimacy from elections or recognition by Western governments. 
Hundreds of militias claim legitimacy and authority by force of arms 
and tribal affiliation. In the 4 years since Qaddafi's demise Libya has 
had three governing bodies: the National Transitional Council (NTC), 
which formed during the rebellion against Qaddafi; the General National 
Congress (GNC) which was elected in July 2012; and the Council of 
Deputies or House of Representatives (HOR) elected in June 2014. U.N.-
led negotiations seek to create a national unity government, but that 
effort stalled in October when both Libyan governments objected. Both 
governments are equally responsible for the talks' failure.
    It is tempting to reduce Libya's conflict to a battle between 
Islamist and nationalist forces. But the reality is more complicated. 
The country is divided along multiple fault lines which do not neatly 
fit into ideological categories but rather are based on intersecting 
tribal, ethnic, local, and regional dynamics. Moreover, neither 
government is unified. When the HOR Prime Minister Abdullah al-Thinni 
tried to leave Libya to join U.N.-led talks in Malta regarding the 
national unity government, he was blocked from traveling by forces 
commanded by Khalifa Hifter, who is nominally the military chief of the 
HOR government. The government in Tripoli is also divided between 
political factions and militias representing different ideological, 
tribal, and local forces.
    Libya's ongoing conflict threatens all of its neighbors. After 
decades of Qaddafi meddling in the region's affairs, Libya has become 
an arena for proxy wars by external actors. The quandary is that even 
if a unity agreement is formed it will not solve Libya's deep problems. 
But without a unity government there is little possibility for any 
group to secure enough legitimacy to begin rebuilding Libya.

    (2) Tunisia remains vulnerable to political polarization, economic 
stagnation, terrorism, and deep socioeconomic challenges which help 
fuel radicalization. The commitment of Tunisia's main political 
factions to compromise is an important achievement. Yet, this consensus 
is fragile and overshadowed by deep political divisions, which prevent 
the government from addressing controversial issues that could 
undermine the economic and political interests of nearly every key 
political actors. This includes the powerful labor unions and rival 
leading parties Ennahda, with Islamist ties, and Nidaa Tounes, which 
has ties to the former Ben Ali regime. The government's justifiable 
preoccupation with security has allowed it to sidestep a range of 
critical yet controversial debates. Rather than address a range of 
urgent economic issues such as investment, tax, and banking reform as 
well as job creation, corruption, and youth marginalization, the 
government has delayed any serious debate on these issues for fear of 
alienating powerful constituencies.
    An economic reconciliation law intended to uncover past financial 
abuses and corruption that is under debate is an important example. The 
law is part of a broader transitional justice process aimed at 
uncovering past abuses under the old regime. Rather than prosecute past 
offenders, the law offers amnesty in exchange for admitting financial 
crimes in a secret tribunal and repaying any ill-gotten funds with a 
fine. Opponents of the law claim that it excuses crimes committed under 
Ben Ali and undermines the whole idea of breaking with Tunisia's 
authoritarian past. The government however, argues that the returned 
money will be used to create jobs and provides greater certainty for 
Tunisia's business community, which has been cautious of investing in 
the domestic economy for fear of prosecution. Every side in the debate 
has merit. The challenge for Tunisians is to decide the appropriate 
balance between investigating past abuses and avoiding new and 
potentially destabilizing political conflicts.
    In all of this an unlikely coalition between Ennahda and Nidaa 
Tounes, which formed largely in opposition to Ennahda's rule, has 
allowed the government to pass legislation virtually unchallenged. So 
far the leaders of Ennahda have prioritized political consensus and 
compromise over a religious and conservative agenda.
    The current government has largely focused on security, which is 
driven by three primary threats. First, since 2012 Tunisia has faced a 
low-level insurgency in the Chaambi Mountains on the eastern border 
with Algeria from the Okba ibn Nafaa Brigades, a loose group of 
militant cells largely affiliated with Al Qaeda in the Islamic Maghreb 
(AQIM). Since the end of 2012 insurgents have killed dozens of Tunisian 
soldiers and security personnel near the Algerian border. According to 
some reports at least one Okba ibn Nafaa cell has pledged allegiance to 
the ISG.
    The second threat is driven by the presence of the ISG in Libya and 
the growing role of Tunisians in Libyan jihadi groups. The ISG in Libya 
is aggressively recruiting Tunisians and is now marketing jihad in 
Libya to them as the gateway to Tunisia. For the ISG, Tunisia 
represents a low-cost opportunity to disrupt a neighboring state. This 
is important both to plant the flag of ISG operations in Tunisia in its 
competition with al-Qaeda, but also to undermine the narrative of 
Tunisia's democratic transition. It is still unclear to what extent the 
Libyan branch of the ISG's outreach to Tunisians is driven by the ISG's 
leadership in the Levant or a local initiative to take advantage of 
Tunisia's close proximity and pools of radicalized youth. In either 
case, Tunisians are responding, which escalates the threat to Tunisia.
    Tunisia's future stability will be directly shaped by Libya, 
because the two countries are close neighbors that are deeply linked by 
family, historic, and economic ties. The two countries share a porous 
275-mile border which is overrun by smugglers and criminal gangs which 
help facilitate the movement of goods and people. Many Libyans have 
family in Tunisia and before 2011, nearly a quarter-million Tunisians 
(out of a population of 11 million) lived and worked in Libya, where 
jobs were plentiful. After the Qaddafi regime fell between 750,000 and 
one million Libyans (out of a total population of approximately 6.5 
million) fled to Tunisia.
    More than 40,000 Tunisians currently live and work in Libya, which 
makes it difficult to distinguish between those who seek to fight jihad 
and those who seek legitimate jobs. Libya is also more accessible and 
easier to reach than Syria. It is relatively straightforward to cross 
the Libyan-Tunisian border and the ISG is deliberately reaching out to 
Tunisians and other would-be jihadists from the Maghreb to join the 
group in Libya. As long as the ISG remains active in Libya, Tunisia 
will be in the jihadi crosshairs.
    Third, radical preachers urging violence have nurtured a homegrown 
jihadi-salafi movement in Tunisia. A legacy of state secularization 
dismantled Tunisia's religious institutions after independence in 1956, 
depriving religious scholars the intellectual tools to combat salafi 
and jihadi-salafi ideas that increasingly filtered into Tunisia over 
the past few decades. Following the overthrow of Ben Ali, radical 
preachers took control of nearly 20 percent of the country's mosques, 
though the government has reasserted control over most. Many young 
people are driven by the simplicity of the salafi message and the 
rebellion it poses to the limited Islamic teaching and practice that 
was tolerated under Ben Ali. Tunisia's Government and religious 
institutions will need to develop a long-term strategy to build more 
credible religious institutions that are relevant to the population, 
most importantly young people.

    (3) Algeria and Morocco have been spared the political violence and 
tumult plaguing their neighbors, but they face many of the same chronic 
socioeconomic problems and a number of potentially destabilizing long-
term challenges. Compared to their neighbors in Tunisia and Libya, 
Morocco and Algeria have enjoyed relative stability. Yet, their ongoing 
political conflict over the western Sahara prevents greater Algerian-
Moroccan cooperation that is vital to addressing the region's broader 
security problems. Under the current circumstances it is unlikely that 
the Algerian-Moroccan rivalry can be mended in the immediate future.
    Morocco remains politically stable compared to its neighbors 
largely due to cooperation between the monarchy and the Justice and 
Development Party (PJD), a political Islamist party integrated into 
politics for more than a decade that now heads the government. Each is 
dependent on the other, and each has an interest in cooperating to 
advance their interests. Meanwhile the economy has shown signs of 
improvement, and the instability in Tunisia and widespread violence in 
Libya remind many Moroccans that the alternative to the current 
predicament could be much worse. Still, Morocco faces many of the deep 
socioeconomic challenges and grievances that radicalize young people in 
other parts of the region. More than 1,500 Moroccans have joined jihadi 
groups in Syria, and local radicalized cells pose a persistent risk. 
Morocco's security forces have been vigilant against jihadi-salafists, 
but radicalization remains a long-term challenge. Moreover, a 
multifaceted grassroots opposition which called for widespread change 
in early 2011 has been divided and weakened, yet persistent calls for 
change could erupt again in the future.
    Algeria is still enjoying more than a decade free of the widespread 
violence that gripped the country in the 1990s during its war on 
terrorism. That stability was largely fueled by high energy prices, 
which provided funds for massive public spending projects, subsidies, 
and government handouts used to address socioeconomic grievances and 
demands. But that stability may be only temporary. AQIM remains active 
in Algeria's mountains, and the attraction of the ISG could shift 
jihadi dynamics leading to a more aggressive jihadist campaign against 
the government. Lower oil prices have already depleted foreign 
reserves, and the government faced a $50 billion shortfall in its 2015 
budget. Politically, a long-lasting feud between the Presidency and 
certain military factions appears largely resolved in favor of the 
Presidency. Yet, President Bouteflika, who brought stability to Algeria 
after a decade of violence, is old and ailing. The lack of a clear 
succession plan creates uncertainty about Algeria's political stability 
in the next year. Instability in Algeria would negatively impact every 
country in the Maghreb and Sahel.
                           the u.s. approach
    The United States is more engaged in North Africa today than at any 
point in the last half-century. It has deep ties with Morocco 
stretching back to the cold war, growing relations with Algeria, and 
receptivity in Tunisia to building a new partnership. Yet, its 
engagement and commitment remains unfocused, underfunded, and not 
commensurate with the Maghreb's level of importance to vital U.S. 
interests. There is no blueprint for how to meet numerous challenges 
the region poses, in part because every country in North Africa is 
different, has its own historical experiences that influence society 
and politics, and is at a different stage of political development. 
Still there are a number of policy conclusions that can guide a more 
effective U.S. policy moving forward.

    (1) Continue to invest in diplomacy. The U.S. Ambassador to Tunisia 
played an important role urging Tunisia's main political factions to 
cooperate at crucial junctures in the country's transition. That direct 
engagement likely made a difference between political compromise and 
stability instead of violence and division. In Libya, pushing the two 
competing governments toward a unity government is also important. The 
United States can ratchet up pressure on warring Libyan factions 
through the use of more targeted sanctions against Libyans actively 
blocking a unity government. The European Union is debating additional 
sanctions and the U.S. Government should coordinate more closely with 
Europe on this point. Ultimately, Tunisians and other North Africans 
must make their own decisions based on their own interests. But the 
record shows that U.S. diplomats and political engagement can have a 
positive impact under certain conditions. When the United States stays 
on the sidelines or is ambiguous about its desired outcomes, however, 
other governments fill the void and often advocate narrowly driven 
policies, which undermine U.S. interests and often perpetuate political 
conflict. Support by different U.S. allies for Libya's competing 
governments for example, has helped perpetuate Libya's political 
crisis.

    (2) Prioritize investment in and assistance to at-risk countries 
that show potential, most importantly Tunisia. The United States has 
recognized Tunisia's progress, declaring it a major non-NATO ally, 
provided loan guarantees, and increased U.S. assistance since 2011. 
That aid has been an important sign of U.S. friendship. But the level 
of U.S. aid compared to other countries in the Middle East remains 
modest. The administration requested $134 million in assistance for 
Tunisia in FY 2016. The Senate's recent appropriation bill cut nearly 
one-third of the requested aid for Tunisia, while increasing aid for a 
number of other countries. Of course, there are finite resources 
available for foreign aid, and taxpayer dollars must be carefully 
scrutinized. But the importance of Tunisia's success at a time of 
historical challenges requires a more consistent and robust aid 
package, which Tunisians and Americans should formulate together. At 
the very least, fully funding the requested aid for FY 2016 would send 
an important message of U.S. commitment.

    (3) Speed up military assistance and sales that we have promised. 
In July 2014 Tunisia's Government requested to purchase 12 UH-60M Black 
Hawk helicopters to strengthen its border defenses and counterterrorism 
capabilities. The order was later changed to eight Black Hawks because 
Tunisia could not afford the full order, with an expected delivery date 
at the end of December 2016. (Four of the models were for modified 
versions with a number of weapons upgrades.) But in September 2015 
Tunisia's Government was notified that the four modified versions would 
not be delivered until mid-2019, nearly 5 years after the initial 
request. Moreover, they were informed that the cost would nearly double 
from the original agreement. The Black Hawk sales were an important 
signal of U.S. commitment to Tunisia's fight against terrorism at a 
critical time. But the lengthy delay in delivery diminishes the value 
of U.S. support, because Tunisia faces an immediate threat. It not only 
limits Tunisia's military capabilities as the country is fighting an 
al-Qaeda insurgency on the western border and the ISG in Libya on its 
eastern border, but it could also push Tunisia to seek aircraft and 
military supplies from alternative sources. This would undermine an 
important opportunity to build long-term defense and servicing 
contracts with a professional military force in the region, which has 
proven itself to be apolitical and committed to civilian government. At 
the same time, it is important not to oversecuritize our aid and 
partnership. Security is a crucial component, but it must be part of a 
more comprehensive strategy to help Tunisia.

    (4) Have realistic expectations and a long-term investment 
approach. Many of the challenges currently facing the region are 
chronic problems that do not have easy solutions, and in some cases 
will take more than a generation to improve. In the meantime the 
security environment will likely deteriorate before it improves, posing 
new challenges for U.S. interests and those of our partners. As the 
United States clarifies its policy objectives and priorities in the 
region, taking a long-term investment approach while having reasonable 
expectations of what is achievable in the short to medium term will 
guide a more effective policy. Most importantly, the United States 
should seek to build long-term partnerships across a range of 
institutions and constituencies in the region beyond governments. 
Investing in student exchange programs, joint research and development 
initiatives in specific fields, and more diverse trade can overtime 
foster deeper, more resilient, and more valuable partnerships.

    It is in the United States interest to invest in and forge deeper 
partnerships with the states of North Africa for the reasons argued 
above. There is great potential to create more stable societies, 
economies, and governments which are accountable to their people. 
Ultimately the people of the region must make their own decisions about 
the kind of future they want. The United States cannot force political 
decisions or set local agendas. But it can play a role in supporting 
these countries in the midst of historic changes.
    Stability and progress in North Africa strengthens a wide range of 
global U.S. interests encompassing security, counterterrorism, and 
diplomacy. That requires a long-term investment approach that sees the 
opportunity, acknowledges the manageable risk, and has the willpower to 
ride out the inevitable fluctuations. If we stay that course, we 
position ourselves to ultimately strengthen America and to reap 
dividends long into the future.

    The Chairman. Thank you very much for your testimony. We 
look forward to our questions.
    Dr. Lawrence, if you would begin, we would appreciate it.

STATEMENT OF WILLIAM LAWRENCE, VISITING PROFESSOR OF POLITICAL 
     SCIENCE AND INTERNATIONAL AFFAIRS, ELLIOTT SCHOOL OF 
   INTERNATIONAL AFFAIRS, THE GEORGE WASHINGTON UNIVERSITY, 
                         WASHINGTON, DC

    Dr. Lawrence. Mr. Chairman, Ranking Member Cardin, 
distinguished members of the committee, 5 years ago next month, 
the Arab Spring erupted across North Africa and into our 
collective consciousness like a shot heard round the world, 
upsetting long-held notions about what was possible and likely 
in the region. One young Tunisian self-immolation lit a torch 
of change across the Middle East and North African region. And, 
to its credit, evidenced by the recent Nobel Peace Prize, 
Tunisia is considered the one last flame of hope in a region on 
fire. But, beneath the billowing smoke and raging fire, there 
are profound tectonic shifts that caused the Arab Spring that 
are continuing, producing, all at once, new challenges and new 
opportunities for the United States. As others have testified 
before you in recent weeks, powerful destructive forces are at 
work, but this is by no means the whole story.
    As I testified before this committee, in the subcommittee, 
in November 2013, we are still living in the North Africa 
region in the wake of a world historical moment, where 
accelerated change continues in profound but cacophonous ways. 
So much is happening, we often miss most of what is going on 
because so much is happening in so many places at once, and we 
find great difficulty in adapting our traditional strategies to 
moving targets, oscillating between risk-averse reflexes to 
disengage and let them fight it out or, with the considerable 
resources of our powerful military at our disposable, a wishful 
desire to deliver a sledge hammer deathblow, a coup de grace to 
our mortal enemies and anyone allied with them, and be done 
with it. Neither approach will work. We have to think big and 
bold and, at times, venture outside of our comfort zone. But, 
like a cancer surgeon, we need a holistic, comprehensive, and 
aggressive approach with microscopic precision to achieve the 
right macrolevel effects.
    Many things remain unchanged from my 2013 testimony, so I 
will not reproduce all that, but, summarizing them.
    Number one, Syria remains the biggest problem in North 
Africa. And, all of these, I am happy to answer questions about 
it during the Q&A.
    Number two, the main causes that drove the profound changes 
we see in North Africa are economic more than political or 
security oriented, although there are political and security-
oriented problems that we have to address.
    Number three, North African young people made these 
revolutions, and we have to address our strategies towards 
these young people.
    Number four, we must not get demography wrong. So, for 
example, Tunisia's problem is not a young bulge. They have 
already had a demographic transition. Tunisia's problem is 
unemployed university graduates who are unemployed at three, 
four times the rate of less-educated Tunisians, and so, we have 
to think about that.
    Number five, the revolutionary forces that produced all 
this change are fed up with the very geopolitical--with our 
geopolitical foes and our geopolitical friends in the region, 
and we have to think about that.
    Number six, North Africa is different. Of the 18 countries 
that rose up in the winter of 2011, the North African nations 
played a much larger role than nations of the east. They 
incubated this change over a longer period. They provided much 
of the political culture of protests, and continue to have the 
greatest chance of success in the region.
    Number seven, major events go unreported--or underreported 
in the Western press. Two years ago, it was Bloody Friday in 
Tripoli. Now we are having a major leadership crisis in Nidaa 
Tunis. We have the aftermath of the sacking of the Algeria 
intelligence chief. A whole list of things that are causing 
major changes that are being reported, and we have to dial in 
and understand those.
    We still suffer from the various ways information gets 
filtered to us. One of these, I have long called the ``Egypt 
effect,'' where, if Egypt is doing well, the region is doing 
well; and if Egypt is not doing well, the region is not doing 
well. And we have to get around that filter.
    We tend to focus on the national, and not the subnational 
and the transnational.
    We have to address the fact that more and more of these 
states are, in Yahia Zoubir's terms, becoming managers of 
violence rather than dealing with the underlying problems 
causing the violence.
    And like Haim, the last point is, I continue to be 
concerned about our very light footprints, not just with 
regards to Libya, but in Tunisia and Algeria, as well.
    To be sure, some things have changed since my last 
testimony. The primary one is, Libya got worse. And the second 
civil war broke out, in May 2014, launched by General Heftar in 
response to a string of political assassinations in Benghazi. 
And this has meant that Libya has transitioned from a country 
of 100 different communal conflicts to 100 different communal 
conflicts and now one big conflict with coalitions fighting. 
And all of that will have to be addressed in the peace plan.
    In Tunisia, we need to continue to support political 
reconciliation, but we also have to support real economic 
reconciliation, transitional justice, and reform in every 
sector, starting with the security--with security-sector 
reform. To get there, we need to increase our assistance to 
Tunisia to $800 million annually as part of a $5 billion 
package of grants and loans that Tunisia will need to succeed 
with its democratic transition. To reach this goal, we have 
been advocating for a donor conference for Tunisia to make up 
this shortfall. And, of course, the Senate must restore the $50 
million of multisecurity assistance cut following the two 
terrorist attacks in Tunisia and the President's visit to 
front-page disappointed headlines in the region. And it is 
worth noting, in a Zogby poll of 2014 in the region, there is a 
sharp decline in confidence that the United States is committed 
to democracy, because of our lack of assistance to Tunisia and 
democratic forces.
    Supporting inclusive politics, however, is the solution, I 
believe, to all the problems. We need an inclusive solution to 
Libya that includes civil society and the two main factions. We 
need to continue to push for inclusive solutions for Tunisia, 
especially in the economic realm. We need to promote inclusive 
politics in Algeria, inclusive politics in Morocco, where there 
is a continuing--a new crackdown on civil society, and 
inclusive politics when it comes to western Sahara, where, I 
have long argued, power-sharing provides the best chance for 
success.
    Right now, we are having opposite arguments being made. 
Zero-sum solutions for Libya. Zero-sum solutions for Egypt. And 
this very negative trend of all-or-nothing political--desire 
for political outcomes is alienating the very youth I began by 
talking about. That is why 90 percent of Egyptians stayed away 
from the polls in recent parliamentary elections. That is why 
80 percent of young Tunisians stayed away in the 2014 
elections.
    The United States must support inclusive political 
outcomes. And, for Egypt, let me say that--start with 177 
elected parliamentarians in jail, the most jailed Parliament in 
the world. Start with the hundreds on death row on trumped-up 
charges. Perhaps if Egypt can begin with these two groups, we 
can create the conditions for a political dialogue in Egypt 
that would get the current regime toward the type of political 
inclusivity that we all seek.
    Thank you.
    [The prepared statement of Dr. Lawrence follows:]

                 Prepared Statement of William Lawrence

    Mr. Chairman, Ranking Member Cardin, distinguished members of the 
committee, 5 years ago next month, the Arab Spring erupted across North 
Africa and into our collective conscious, like a shot heard ``round the 
world,'' upsetting long-held notions about what was possible, and 
likely, in the Middle East and North Africa region. One young 
Tunisian's self-immolation lit a torch of change across that region, 
and Tunisia, as evidenced by the recent Nobel Peace Prize, is 
considered the one last flame of hope in a region now on fire. But 
beneath the raging fire and billowing smoke, the profound tectonic 
shifts that caused the Arab Spring continue to move, producing both new 
challenges and new opportunities for the United States. As others have 
testified before you in recent weeks, powerful, destructive forces are 
at work, but this is by no means the whole story.
    As I testified before this committee in November 2013, we are still 
living in the North African region in the wake of a world historical 
moment, where accelerated change continues in profound but cacophonous 
ways. So much is happening that we often miss much of it, happening all 
at once, in so many places. We then find great difficulty in adapting 
our strategies to moving targets, oscillating between the risk averse 
isolationist reflex to disengage and ``let them fight it out,'' or, 
with the considerable resources of our powerful military at our 
disposal, a wishful desire to work with authoritarian friends to 
deliver sledgehammer death blows, coups de grace, to our mortal enemies 
and anyone allied with them, and be done with it. Generally speaking, 
neither approach will work. We do, however, have to think big and bold, 
and at times venture outside of our comfort zone, but like a cancer 
surgeon, we need a holistic, comprehensive and aggressive approaches, 
delivered with microscopic precision, to achieve healthy macro level 
effects.
    Many things remained unchanged from my 2013 testimony before the 
Near East, South Asia, and Central Asia Subcommittee, including that:

    (1) Syria remains the biggest problem in North Africa. (Syria has 
radicalizing effects and blowback effects. Thousands of North Africans 
are fighting there, thousands have died there, and many hundreds have 
returned, when they manage to escape the clutches of the so-called 
Islamic State or al-Nusra, only to fall usually into the same miserable 
contexts that propelled them to seek escape.)
    (2) The main drivers of these profound changes are economic, more 
than political or security-oriented. (As a result, we have to be 
creative and aggressive economically--as well as with regards to 
security and politics. Economic growth strategies should not be limited 
to the oft-mentioned area of entrepreneurship and foreign direct 
investment, but should also address deep-seated issues economic justice 
and economic opportunity. There have been over 400 self-immolations 
across the region since Mohamed Bouazizi, including more self-
immolation suicide in Tunisia just last month. Roughly half of the 
economic activity and over half of the labor force in all of these 
countries are in the informal sector. However, governments and 
traditional civil society still rail against the informal economy--the 
survival economy--as if it was the problem and not part of the 
solution. Building on the work of Peruvian economist Hernando de Soto, 
we should reenvision the informal sector as an engine of growth, rather 
than a problem to be eradicated. Excluding the informal sector and its 
actors is not the answer, and that very exclusionary approach is what 
started the Arab spring in the first place, with the crackdown on a 
street vendor.)
    (3) North African young people made these revolutions and continue 
to have high, dashed expectations. (And they will continue to seek to 
force change. They are also not just ``kids over there in the North 
Africa.'' They are products of U.S. policy and generosity. It was our 
investments in vaccinations, our investments in mother-child health 
care, our investments in education and exchange programs, our 
investments in any number of areas that created the youth bulge in the 
first place. The youth bulge was not created by high fertility. It is 
created by dropping mortality rates, which dropped twice as quickly as 
fertility rates across the region in recent decades, due to modern 
medicine, modern nutrition, and modern sanitation, also influenced by 
American know-how and development largesse. Many of these kids, many of 
the revolutionaries, studied in American universities. They were our 
classmates, our students, and as things continue to unfold they are 
wondering why we are not more present in their time of need. They are 
plugged into U.S. technology, economics, politics and culture. But now 
the chickens of successful developmental policy and engagement have 
come home to roost, and we have not sufficiently adjusted our 
assistance policies to take account these new realities. Big 
investments in health and education and on training of women and youth 
are the old model that has helped create a new set of problems, largely 
by increasing lifespans, creating the youth bulge, and providing a 
workforce for often nonexistent jobs. Now, 10 million jobs need to be 
created in the coming years across the MENA region to absorb a dramatic 
surplus in vibrant, trained human capital, a surplus that our largesse 
and good will helped create in the first place.
    (4) Morocco, Algeria, Libya, and Egypt still have a youth bulge, 
but Tunisia does not. Tunisia has already turned the demographic corner 
with low mortality and low fertility and a median age of 31. Tunisia's 
problem, rather, is unemployed university graduates--unemployed at 
several times the rate of those with much less education--and 
unemployment among marginal populations, especially in impoverished 
areas of the interior, and among women. (Following the two 2015 
terrorist attacks, which caused a well-documented crisis in tourism, 
the attacks also caused foreign direct investment and local private 
investment to dry up. This has led to a situation of zero or negative 
growth; Tunisia may well suffer in 2015 its second year of recession 
since the revolution.)
    (5) As we slip back into familiar geopolitical analysis and 
comfortable pre-Arab-Spring geopolitical positions, we have to keep in 
mind that the revolutionary forces that will continue to cause unrest 
are fed up with both our geopolitical foes and our geopolitical friends 
and are looking for new management. (The comparison I made in 2013 to 
the 1848 Springtime of the Peoples in Europe, building on Dr. John 
Owen's work at University of Virginia, still applies. In 1848, only one 
monarchy was overturned, but the process to overturn all of Europe's 
monarchy's was set in motion, and we risk now siding again too closely 
with the monarchs and violent authoritarian leaders against the people 
who seek rights, dignity, and well-being.)
    (6) North Africa is different. Of the 18 countries rocked by the 
wave of protest in the winter of 2011, the North African nations played 
a much larger role than Middle Eastern nations. North Africa incubated 
this change over a long period, and it provided much of the political 
culture, the slogans, the songs, the rap lyrics, and the hybridic 
ideologies that challenged the status quo across the region. (North 
Africa continues to be the place where most of the positive change is 
taking place in the wake of the Arab Spring and where the greatest 
post-Arab-Spring potential exists, in every one of its countries. It is 
also worth noting that in part because of common experiences and 
aspects of political culture, Tunisia, Algeria, and Morocco have 
produced the most cogent and reliable analyses and strategies to 
influence positive outcomes for Libya; to date, they have played a very 
positive role, and we should continue to follow their lead on Libya. 
This cannot be said for the countries east of Libya, all of which tend 
to choose sides, projecting on North Africa their own Middle Eastern 
conflicts and rivalries, which polarizes Libya further and prolongs 
Libya's second civil war.)
    (7) Major events go unreported or underreported in the Western 
press. (Two years ago it was the tragic Bloody Friday massacre in 
Tripoli. Now, it is major unreported and underreported developments, 
including a leadership crisis within Tunisia's ruling party Nidaa Tunis 
which has caused 35 top members to ``freeze'' their participation in 
the party and could cause it to splinter, a scandal among Libyans 
regarding the U.N. envoy and emails sent to the UAE, the aftermath of 
the sacking of Algeria's intelligence chief--Bouteflika's longtime 
raison d'etre, and worsening crackdowns on civil society across the 
region.)
    (8) We still suffer from various ways in which the information from 
the region gets filtered, with terrible distorting effects. One of 
these distorting filters, I have long called the Egypt effect, which 
posits (wrongly) that when Egypt is going well, the region is going 
well, and that when Egypt is doing badly, everyone else is suffering 
from whatever malady Egypt has. (Tunisia in particular and North Africa 
in general are very much on their own trajectory and should not be 
viewed through that Egyptian lens.)
    (9) That said, we do ourselves a disservice when focusing too much 
on nation-state level changes and dynamics and ignoring the subnational 
and the transnational. (Cross regional effects are complex and 
interwoven. For example, the ways in which regimes and protesters learn 
in real time from the experiences in neighboring countries 
significantly impacts what happens in the learning country. This is not 
a case of just Egypt influencing the region, but every country 
influencing every country in the region in complex ways.)
    (10) We increasingly have devolved into a situation of regime-
managed violence rather than positive change. (Restive populations with 
higher expectations because the Arab Spring and states creates a 
situation which forces regimes, in the words of leading expert Yahia 
Zoubir, to become ``managers of violence.'' To whatever degree each of 
these states are to blame for that violence, or are simply victims of 
antiregime violence, varies from state to state. But there is no 
question that all five states need help quelling the post-Arab-Spring 
increase in turbulence and violence, some of it in the name of 
democratization and rights, some of it in the name of jobs and 
benefits--such as price subsidies--and some of it fomented by the more 
nefarious forces including dangerous hooligans and full-blown 
terrorists. But while helping these states manage violence, let us not 
get on the wrong side of the democratic change, as we did in some of 
the cases of the Arab Spring more than others, and always ask in our 
assistance and in our partnerships: how does this policy affect the 
majority of young people that are trying to emulate our democratic 
system of government, and with their efforts to make political change?)
    (11) I continue to be very concerned about our light footprint not 
just vis-a-vis Libya, to which we should have many more resources 
devoted, but in Tunisia and Algeria.

    To be sure, some things have changed since my 2013 testimony. The 
primary one that the situation in Libya worsened. With the launch of 
the second Libya civil war in May 2014 in response to and a string of 
political assassinations in Benghazi and gains by radical militias in a 
couple of communities, General Heftar has attempted, with limited 
success, to turn dozens of small Libyan communal conflicts into one 
large winnable one. Now this new large conflict pitting the Dignity 
coalition against the Dawn coalition has to be resolved, along the with 
myriad communal conflicts that already blighted the Libya landscape.
    The Arab Spring was about a lot of things: dignity, fighting 
corruption, creating jobs, development of less favored areas, and 
empathy and compassion for others across countries and across borders 
fighting for the same things. But as much as anything else it was about 
inclusivity. Young crowds were not just fighting for their own 
interests, they were fighting for the rights of every self-respecting 
and respectful citizen to have a seat at the democratic table, with no 
ideological or identitarian litmus tests. This included women, 
Islamists, secularists, ethnic groups such as Amazigh or Tebu, the 
marginalized poor and other subaltern groups, and a wide ideological 
spectrum, including everything from Muslim feminists to democratic 
Salafists, from democratic socialists to populist nationalists, and 
from local Troskyist and Maoist labor leaders to free market liberals.
    The new counterrevolutionary anti-inclusion politics--which had 
been previously justified for decades on security grounds--has returned 
and has devastated politics in Egypt and Libya, and threaten gains in 
Tunisia, Algeria, and Morocco. Exclusionary politics is also why 90 
percent of Egyptians stayed away from the recent parliamentary polls 
and over 80 percent of young Tunisians away from the 2014 elections.
    What does this mean for U.S. policy? It means not backing zero-sum 
politics and zero-sum outcomes. It means the U.S. must support an 
inclusive political outcome for Libya with a full role for civil 
society and both the Tripoli and Tobruk governments, and in particular, 
the Warfalla, Zintan, and the Misratans. It means the U.N. needs to 
refrain from declaring again and again the achievement of a new 
political deal, and then tweeting at everyone that they need to sign 
on. The U.N. needs to honestly broker a full comprehensive solution 
that represents the largest possible number of Libyans, excludes none 
of the major players, and does not triangulate and maneuver around key 
factions.
    It means in Tunisia that we need to support continued political 
reconciliation, economic reconciliation, transitional justice, and 
reform in every sector, starting with security sector reform. Security 
reform needs to be baked into security assistance to the largest extent 
possible. To achieve a wide variety of goals in Tunisia, we need to 
increase our assistance to $800 million annually, as a part of a $5 
billion package of grants and loans. The stakes in Tunisia are enormous 
for the region, and the Tunisian democratic transition, which is at a 
tipping point due in large part to terrorist attacks, must succeed. To 
reach this goal of $5 billion in annual global assistance, we need to 
help organize a democracy donor conference for Tunisia, designed to 
raise $25 billion over the next 5 years to make up Tunisia's budget 
shortfalls and extraordinary transitional needs. The Senate must also 
restore the $50 million in mostly security assistance passed by the 
U.S. House of Representatives.
    While admiration of the U.S. continues to rank much higher in North 
African states than in Middle Eastern states, a telling 2014 Zogby poll 
flagged a sharp decline in confidence that the U.S. is committed to 
democracy across the Middle East. Given the geopolitics of the Middle 
East, broadening and deepening support for Tunisian democracy sends a 
profound message not just to Tunisians, but to tens of millions of 
youth waiting for the U.S. to match its encouraging rhetoric in favor 
of democracy with concrete action.
    Supporting inclusive politics also means we must continue to deepen 
our engagements with Algeria, particularly in the economic and cultural 
realms, while encouraging efforts within the Pouvoir to work with the 
opposition and introduce political and constitutional reforms. 
Supporting inclusive politics means working with Morocco to improve its 
human rights performance both in the north and in the Western Sahara, 
beginning by curtailing its current crackdown on civil society and 
working with Morocco on reform and on reopening spaces for healthy 
political contestation.
    Pursuing inclusive politics for Egypt is probably the toughest nut 
to crack. We have to use every diplomatic and Track Two lever at our 
disposal, while maintaining Camp David-linked assistance, to facilitate 
eventual negotiations with hundreds of thousands of exiled and jailed 
revolutionary opposition leaders and rank and file, when the time is 
right, which may be sooner than we think. President Sisi did mention 
today en route to meetings in London that he is open to allowing the 
Muslim Brotherhood to play a role in Egypt, and this type of concession 
is to be encouraged. In the near future, Egypt must release 177 elected 
parliamentarians and release hundreds on death row for political 
reasons for crimes they did not commit. Releasing these two groups of 
several hundred individuals could set the stage for eventual political 
reconciliation with the forces that won the 2011-2 elections.
    Zero sum politics gets us a nothing in Egypt, nothing in Libya, 
nothing in Tunisia, nothing in Algeria, nothing in Morocco, and nothing 
in Western Sahara, whether zero sum warfare, zero sum elections, or 
zero sum negotiations. The solution in every case is powersharing--a 
concept advanced by Jacob Mundy--and we should be advocating this at 
every turn, endearing ourselves to majoritarian, democratic youth 
across the region. This is what North African democrats and young 
citizens expect from us, and this is what we need to do to help empower 
citizens to work with us on in favor of the same goal, a stable, 
prosperous North Africa with strong relations with the United States.

    The Chairman. Thank you both.
    I am going to reserve my time for interjections along the 
way, if that is okay, and we will start with Senator Cardin. 
Thank you very much.
    Senator Cardin. Well, thank you, Mr. Chairman.
    And let me thank, again, both of our witnesses.
    And you both agree that an important part of our strategy 
in North Africa rests with our appropriation process, both of 
you saying that we should adhere to the President's request. In 
some actions already in Congress, they have already reduced 
those. If money was the sole issue here, obviously, looking at 
Egypt, that has not necessarily been an effective means of 
bringing about the types of reforms that we would have hoped to 
have seen.
    So, I want to just concentrate on Libya for one moment, if 
I might. When we talk about Tunisia, and the ability of 
terrorists to be trained in Libya and then enter Tunisia, we 
are seeing that that terrorism is affecting their economy and 
tourism being dramatically reduced. Unless we can get some 
resolution on the issues in Libya, the instability in that 
region will continue. The Sahara Desert area is very difficult 
for us to be able to monitor. So, the United Nations brokered a 
unity agreement, which has not been embraced by either side of 
the civil war. Can you just share with us briefly your 
prognosis as to whether we have a reasonable chance to get an 
effective coalition government that can stand up to the 
challenges in Libya? And is the United States playing a strong 
enough role, here?
    Mr. Malka. Thank you, Senator Cardin.
    I will start off by addressing your question about efforts 
to reach a Libyan unity government. Part of the challenge we 
face in Libya is that, even if a unity government is reached 
between the two different governments in Libya, that does not 
necessarily solve the problems in Libya, in terms of the 
multiple conflicts there. As Professor Lawrence mentioned, 
there is not just one binary conflict between the Tripoli 
government and the Tobruk government in Libya. There are 
multiple conflicts going on in Libya between different regions, 
between tribal groups, between cities. The conflict does not 
fit into two neat ideological, political packages.
    So, there are many, many issues that Libya faces that we 
have to address. And even if an agreement is reached, it does 
not mean that the two competing governments are actually going 
to work together. And I think what we need to do, in terms of 
the U.S. Government, is ratchet up the pressure that we do have 
on those two governments----
    Senator Cardin. Well, as I understand, there is a framework 
for an agreement. It has not been embraced by either side yet. 
Is that----
    Mr. Malka. There is a framework. That is correct, sir, 
there is a framework----
    Senator Cardin. Do you have confidence that, if that is 
embraced, it can work?
    Mr. Malka. Well, as I said, even if it is embraced, there 
still remain challenges to effective cooperation, because the 
level of polarization and the other multiple conflicts could 
prevent real cooperation. I think the main objective before us 
is for the two competing governments to reach a unity agreement 
and then have a sustained counterterrorism campaign that 
targets the Islamic State and other jihadist militant groups in 
Libya. That should be the first objective, and that is what we 
should be trying to promote. And, in doing that, we need to 
ratchet up the pressure on both sides by making it clear that 
we will support additional sanctions against people in both 
governments that are blocking the unity government.
    Senator Cardin. And ``we,'' you mean United States.
    Mr. Malka. The U.S. Government, that is correct, working 
with the Europeans, who are currently debating that, as well.
    Senator Cardin. Dr. Lawrence, I am going to let you answer 
that question, but I want to expand it a little bit. In our 
hearings on the gulf countries, it was clear that they really 
cherished their relationship with the United States and felt 
that it was critically important for the stability of their own 
country, but they also wanted to see a more aggressive United 
States involvement in the problem areas, whether it was in 
Syria or dealing with the Iranian issues or in Iraq. They felt 
that the United States presence was critically important, more 
so than the other competing powers, particularly Iran, Russia, 
and even Europe. So, in northern Africa--that is, Tunisia and 
the other countries we are talking about--how important is the 
United States participation, relative to other regional powers, 
in bringing about a confidence of stability for their country?
    Dr. Lawrence. Why do I not deal with the second question 
first and then go back to the----
    Senator Cardin. Okay.
    Dr. Lawrence [continuing]. Libya-specific question.
    The U.S. role has huge potential, and we have not--we are 
not doing enough. If you look at, for example, polling data 
from the MENA region, the United States is viewed more 
positively, generally, in North Africa than in the Middle East. 
If you look at institutional relationships, the close 
relationship between the Tunisian military and the U.S. 
military, even closer than to the French military, the large 
numbers of the Libyan political class that were educated in the 
United States, many of which did not return to the United 
States for decades, these communities that are pro-American are 
very upset, on a regular basis, about the lack of U.S. 
engagement in North Africa, whether it is helping democracy in 
Tunisia or seeking democracy for Libya. So, there is a feeling 
there, less caused, I would say, by U.S. disengagement, 
although that is part of the story, but more caused by the huge 
expectations built up by the revolutions and all of the 
rhetoric coming from the U.S. Government about how important 
these transitions were to the United States, and then lack of 
follow-through, in terms of helping these countries address all 
the challenges we have been talking about.
    It is also worth nothing, I think, in answer to your first 
question, that Tunisia, Algeria, and Morocco are playing very 
positive roles in Libya, and all three of them have taken a 
rigorously neutral stand on Libya that is helpful. No country 
to the east of Libya is taking a neutral position on Libya, and 
they are taking polarizing positions, backing one faction or 
another in ways that will probably lower the chance for 
successful agreement or--once we have an agreement--success of 
that agreement, and lower--and increase the chance for a 
prolonged civil war in Libya.
    So, the short answer is, regionally, look west. Algerians 
and Moroccans and Tunisians are doing a great job on Libya. And 
do not take much advice from the east, for the reasons that 
were included in the premise of your question.
    Now, specifically on the deal, one of the interesting 
aspects of the U.N. process--let me talk about a bad thing and 
a good thing--one of the bad things is that Leon kept 
announcing success when he did not have buy-in. And so, 
literally, you would have the U.N. tweeting, asking that sides 
sign up to an agreement we just heard an announcement that he 
agreed to. So, there has been this--one diplomat described this 
as ``crafty triangulation.'' I see it as problematic, because 
if you keep declaring victory when you do not have victory, you 
create more problems than you solve. And I think the new Libya 
envoy that Ban Ki-moon has named, the new--a German, the name 
is escaping me right now--has an opportunity to start fresh 
with the negotiations because we do not have buy-in from either 
side yet.
    But, one of the positive things that came out of the 
negotiations, which were well led--the negotiations were very 
good, and I have a white paper on it. I am--that I submitted to 
the State Department, I would be happy to share with the 
committee, about, you know, the nitty-gritty of the deal and 
what the various issues are for each side. But, what was very 
interesting is that Misrata, who are on one side of the major 
conflict in Libya right now, and Zintan, who are on the other 
side, started to peel away. Now, this was reported as the 
press--as fragmentation on each side, but was actually a 
positive development, that the two strongest military forces in 
Libya were seeking a middle ground. In addition to that, the 
Algerians have been advocating including the Warfalla, which 
was a pro-Qadhafi tribe, in a kind of three-way new force that 
stabilizes Libya and makes this unity agreement work.
    But, I have to agree with Haim wholeheartedly that--and I--
again, quoting another senior State Department official, he 
said his main concern was not that Libya gets a deal or does 
not get a deal, it was what was going to happen once there was 
a deal. And it is going to be very long, slow slog to make the 
deal work.
    Senator Cardin. Thank you very much.
    Thank you.
    The Chairman. Senator Flake.
    Senator Flake. Thank you.
    Thanks for the testimony.
    The conventional wisdom has been that Tunisia, at least, 
has some of the democratic institutions that will help it as it 
moves forward. Other than Tunisia, what other country in the 
Maghreb has that--I mean, are we just starting from scratch 
with the others? How long will it take? And, first, with 
Tunisia, is--you are talking about a robust aid package, and 
involvement there for the United States. What else does Tunisia 
need? And then, address the issue of institutions--civil 
institutions in the other countries.
    Mr. Malka. Thank you. I agree that Tunisia does have a long 
history of institutions. Those institutions were not always 
effective. They were put to use by authoritarian governments. 
But, there is an educated and effective bureaucracy in Tunisia. 
Similarly, in Morocco and Algeria, there are also effective 
institutions and bureaucracies.
    Morocco and Algeria have been relatively stable compared to 
their neighbors, for different reasons. In Morocco, there is a 
balance of power between the monarchy, which is the executive 
authority in Morocco, and an Islamist political party that has 
been integrated into parliamentary politics for more than a 
decade, which coexist. And the King of Morocco's reform package 
in early 2011 helped satisfy some of the minimal demands that 
people had for change.
    Now, the other aspect of Morocco, and Algeria to some 
degree, is that people look around the region and see what has 
happening in Libya, they see what is happening further away, in 
Syria, they see the instability in Tunisia, and they think to 
themselves, that things could get a lot worse, so maybe the 
current situation is not so bad.
    But, Tunisia, Morocco, and Algeria all have institutions. 
They certainly need to be strengthened. There is a lot of work 
to be done in all three countries in the justice sector, in 
particular, in education. But, the problem that I see is that 
Morocco and Algeria face many of the same long-term challenges 
that drive radicalization and many of the same kind of 
socioeconomic problems that drive youth marginalization as 
their neighbors. And while they are stable now, we are not sure 
about what is going to happen down the road. In Algeria, for 
example, the President has consolidated his power, as far as we 
know, against certain elements of the military, but oil prices 
have declined, and Algeria is dependent on oil prices, on oil 
revenues, to sustain large public spending projects, to sustain 
subsidies, and other economic benefits that have helped buy 
stability in Algeria over the last decade.
    So, there is a lot of uncertainty about what comes down the 
road in Algeria and Morocco. It is important to note that 
Morocco also--despite its stability, has also produced large 
numbers of foreign fighters that have gone to Syria. The 
current estimate is about 1,500 Moroccan fighters in Syria. The 
number is probably higher. There are also Moroccans turning up 
in Libya, as well, fighting with the Islamic State. So, a lot 
of the problems that we see in Tunisia and other parts of the 
Arab world are also present in Morocco and in Algeria.
    In terms of what Tunisia needs, your second question, there 
is a long list of what it needs. I think the two immediate 
priorities are security and the economy. And that is what the 
government has been focused on almost exclusively. Security and 
the economy are deeply linked together, because Tunisia relies 
on tourism for about 7 percent of its GDP. And the terrorist 
attacks in March and June, which killed over 50 people in Tunis 
and a seaside resort, have hit the Tunisian economy very hard. 
A number of tourist resorts and hotels have closed down, 
impacting the Tunisian economy.
    So, what Tunisia needs is jobs, economic growth; and, in 
order to get that, it needs to get a handle on its security. 
Once it starts getting a handle on the security, it can start 
dealing with the many other problems--education reform, youth 
marginalization, corruption--that also fuel discontent in 
Tunisia.
    Senator Flake. Go ahead.
    Dr. Lawrence. Building on what Haim ably outlined, I will 
add a few data points for you.
    Number one, thousands of North Africans, including from 
Algeria, too, although in smaller numbers, and Libyans, have 
gone to fight in Syria. Hundreds have been killed from each of 
the countries, and hundreds have returned. And there is some 
very interesting anecdotal evidence that those returning from 
the conflicts are falling into the same miserable economic 
conditions that propelled them, and looking for new jihad. So, 
we literally have kids escaping from the battlefields in Iraq 
and Syria, at the threat of being shot for desertion, returning 
home and not finding any opportunities, and looking for a new 
struggle, a new fight. So, this is something that economic 
assistance to these countries and economic messaging from the 
regimes, you know, would clearly begin to address.
    As Haim pointed out, tourism is the third-largest--well, he 
said--I am talking about--but, it is the third-largest industry 
in Tunisia, but the other thing that terrorist attacks in 
Tunisia did was, it dried up foreign direct investments and 
local private investment, which is not seeking to invest in 
Tunisia anymore, because of instability. Tunisia needs, as he 
mentioned, security help, but also security sector reform, as 
outlined very nicely in the Crisis Group report; economic help, 
but also economic reform; and it needs transitional justice. 
And all of these things are things the United States can help 
with.
    On Libya, let me just mention that it is not that there are 
no institutions in Libya. We often hear that. There are 
institutions in Libya. There are lawyers, and there is a 
justice system, and there are ministries. The problem is that 
they were significantly weakened by the Qadhafi regime, and 
have not been built up since. Right now, the brightest hope--or 
the two brightest hopes in Libya are two things: a robust 
private sector, which is actually still growing and--in terms 
of, like, cafes and small service--that is still growing in 
Libya; and the other is municipalities. Municipalities are 
functioning, and a lot of the U.S. assistance has turned 
towards the municipalities upon which good things could be 
developed.
    Two more data points. For Algeria, we did not not have an 
Arab Spring in Algeria. We had the largest protest since 1988. 
And, more importantly, according to Ministry of Interior 
statistics, we have over 10,000 microprotests in Algeria every 
year. In Morocco, we increasingly have microprotests. In their 
Arab Spring, we had a million in 80 cities simultaneously, 
unheard-of level of protests. They had a big Arab Spring. They 
are having thousands of microprotests in Morocco. These 
microprotests are mostly about economic issues, also health and 
other things, education. But, a--nuts-and-bolts, service-
delivery issues that the crash in oil prices is not helping, 
and that is--there are small things we can help them do, and do 
better, to address the demands of youth.
    Thank you.
    Senator Flake. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you for your testimony. This is very helpful.
    We had a hearing yesterday, in one of our subcommittees, on 
the response to the buildup of Russian propaganda, and a lot of 
the same phrases got used there that get used here, this lack 
of American focus, this lack of American attention, this lack 
of American leadership. Sometimes you do not really understand 
what those words mean, because we have got a lot of smart 
people at the State Department, and we have a lot of people 
that are spending a lot of time focused on these problems, 
trying to sort them out.
    And so, Mr. Lawrence, I wanted to sort of drill down on a 
point you made. You talked about the fact that there were 
expectations built up, and then we did not make good on those 
expectations. And my sense is that that is not an expectation 
that there was going to be an extra two or three people at the 
State Department working every day on Tunisia, that that was an 
expectation that there were going to actually be resources that 
were going to be delivered on the ground to help support this 
transition.
    Now, the President asked for double the amount that he had 
last year, but last year's amount of money that we delivered to 
Tunisia was about $60 million, somewhere around that. This is a 
country with a GDP of $47 billion. I mean, that is not a 
transformational amount of aid, that is not at a amount of 
money, wherever it goes, that is going to make a difference. 
So, I get the critique about whether our strategy is right, but 
is this not, at some level, when you are talking about both 
these countries, but, in particular, Tunisia, which is at the 
moment of making this swing--is this not really a matter of 
just not simply having the necessary resources to back up our 
talk with real action?
    Dr. Lawrence. You have answered your own question, in many 
ways, but let me flesh out some of the points that you made and 
that I agree with wholeheartedly.
    To quote Ann Patterson before this committee last week, I 
believe, or the week before, the State Department has been 
mostly focused on crisis management. And so, there is a certain 
amount of bandwidth that could have been oriented towards North 
Africa. That got sucked up in solving Syria, dealing with 
Yemen, massive refugee crises, increasing counterterrorism 
threats. And, frankly, at one level--and Haim mentioned this, 
and I mentioned it--we actually need more diplomats in the 
embassies and more people at the State Department focusing on 
North Africa. That actually matters. And one of the things--for 
example, at AID--I mean, AID has a pretty big Tunisia and Libya 
teams, but most of what AID does is farm out resources to NGOs 
that can do the heavy lifting, the hard work.
    Let me mention, also, in passing, something I did not say 
in answer to the previous question, to keep myself short, but 
you have 1.2 million Libyans of a country, of 5\1/2\ million, 
living in Tunisia right now. And Tunisians and Libyans need 
almost identical types of training. So, you could--that is a 
twofer--you could start training Libyans and Tunisians in the 
same security sector-related, justice-sector-related, all these 
different fields--economic developments, entrepreneurship--in 
Tunisia right now, at very low cost--you know, we are talking 
about programs that cost millions, not billions--and taking 
advantage of the opportunity that we have there.
    Now, in terms of the paltry U.S. aid, I could not agree 
more. I mean, Tunisia, before and after the revolution, was 
ninth in U.S. assistance to MENA. Now, Jordan needs a lot of 
money. They have a lot of Syrian refugees. Lebanon needs help. 
Other countries. But, everyone in the region knows we are not 
supporting Tunisia in a way that matches our rhetoric, and that 
is disturbing. It is disturbing when you see decreasing 
positive numbers for democracy among young people, when they 
see us, in their minds, abandoning our own rhetoric, and going 
back to the old tried and true ways of backing local 
authoritarian leaders on security grounds.
    So, it is not that we cannot address security and 
counterterrorism issues, as Haim said, it is that we have to 
walk and chew gum at the same time. And that means engaging 
young people. There are many ways to do this. Let me mention 
one.
    You have hundreds of thousands of unemployed university 
graduates in Tunisia that took part in a revolution. Some of 
them will be given public-sector jobs with no meaning, because 
the public sector does not have anything for them to do, right? 
The traditional private sector cannot absorb them. What do we 
do? How about national service projects, where you put young 
Tunisian university grads out in the field, like Peace Corps--
this has been discussed; no one has done anything yet--to deal 
with literacy, to deal with public health, to deal with, to 
deal with. An ex-Peace Corps volunteer from Morocco started 
Corps Africa. She has been trying to get into Tunisia, and has 
not found a way in yet. She is starting a new branch in Mali. 
But, there is huge human capital potential in Tunisia, huge 
human capital potential in the Libyan diaspora, and we are not 
taking advantage of it.
    Senator Murphy. Mr. Malka, let me ask you a question 
specifically about Libya. This is yet another proxy war in the 
region in which you have Egypt and the UAE on one side, Qatar 
on the other side. Are we best off trying to increase our 
intervention inside the country, focus our resources on trying 
to solve the problem through direct intervention by talking to 
the sides of this conflict who, as I understand, are not always 
terribly interested in talking to us, or are we better off 
working with the funders and with the regional players, who 
seem to be digging in on opposite sides of the conflict? Which 
is--I mean, I know the answer is probably both, but let us just 
posit a world in which we do not have the resources or the 
bandwidth to do both. Which are we better off--where are we 
better off putting our resources?
    Mr. Malka. Sure. Well, we certainly need to be talking to 
our allies in the Middle East. Turkey also has been playing an 
active role in Libya and other parts of North Africa. And I 
think, you know, the fact that they are so engaged and invested 
in North Africa--as you mentioned, the Qataris, the Emiratis, 
the Egyptians--proves how important this region is to the core 
interests of the Middle East.
    I think it would be a mistake to just pursue the policies 
of one side or the other side, because, as I mentioned in my 
oral testimony, oftentimes external actors are driving policies 
that actually undermine our own interests and perpetuate the 
conflict. And I would argue that, by having Libya as a proxy 
struggle between several Gulf States and Turkey on the other 
side perpetuates the conflict. And that is not in our 
interests. We are better served by supporting the U.N. process, 
pushing for a unity government, trying to get the different 
parties together, and branching out and reaching out to other 
elements of the two Libyan governments that we have not been 
actively engaged with, and trying to promote a unity government 
as a first step.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Senator Risch.
    Senator Risch. Gentlemen, I was in Morocco a few months 
ago, and I could not--the feel there is so much different than 
right next door in Tunisia. And I appreciate your statements 
about, ``Well, they have problems, too. They have foreign 
fighters that have left, and they have these microprotests.'' 
And I--you know, I guess I disagree a bit that there is some 
similarity. I mean, they are so different. I mean, look a 
microprotest is one thing. Taking up arms and killing people at 
a resort, and what have you, is something else. I mean, we have 
microprotests here in the United States, and live with it. We 
have microprotests in my own home every day, and somehow we get 
by. But, the situation in Morocco seems to me to be something 
that we can live with, the Moroccans can live with, with the 
world can live with, but the situation in Tunisia is so much 
different. And so, I guess I beg to differ with you to some 
degree in trying to equalize those countries. Tell me why I am 
wrong.
    Mr. Malka. Sir, I did not intend to indicate that all of 
the countries were similar. I think every country in the region 
is very different. And, in fact, in my written testimony, I 
actually detail how they are different, how each country has a 
different political model, a different economic model, 
different historical experiences that shape their society and 
their politics, and are at different stages of their political 
and economic development. So, I do not think either one of us 
thinks that Morocco is the same as Tunisia is the same as 
Algeria.
    What I think is important to note about Morocco, and what 
sets it apart from the other countries in the region, is that 
Morocco, by and large, has a strategy to deal with the many 
problems that it faces. It has a strong Executive that can set 
policy and that has control of the bureaucracy--importantly, 
the security services, the economic structure--that can help 
implement that policy. The other----
    Senator Risch. And why is that not happening in Tunisia?
    Mr. Malka. Well, part of it is a problem of legitimacy. Who 
has legitimacy? Tunisia, still faces deep political 
polarization within the political establishment between 
Ennahda, and on the one side, and Nidaa Tounes, on the other, 
which has deep ties to the former regime, and also the labor 
unions, which are very strong. So, while they have come 
together toward political compromise and consensus, there are 
still these deep problems within Tunisia, and this deep 
political polarization. There are questions of authority, there 
are questions of legitimacy, which you do not necessarily have 
in Morocco, where you have a strong executive.
    Senator Risch. Thank you.
    Mr. Lawrence--Dr. Lawrence?
    Dr. Lawrence. You are correct to point out that Morocco is 
different and Morocco is in better shape than its neighbors. We 
often have debates--this very debate, in academic circles, you 
know, about what is similar and what is different between the 
countries. And I am often arguing that there are important 
similarities that get overlooked.
    I think the issues facing youth are very similar. The 
protests, slogans, and culture are very similar. The tactics of 
microprotests are very similar. The networks sending fighters 
to Libya are all connected. The huge informal sectors, 50 
percent of the economy in everyone in the countries we are 
talking about and the majority of the people working in them, 
are all connected and all networked. So, we separate Morocco, 
or any of these countries, out at our own peril by not 
understanding what the connections are and what the differences 
are.
    In terms of the amount of bandwidth that we should be 
applying to these problems, and, in agreeing with that sort of, 
I think, question beneath your question, I would say, between 
the four countries we are talking about today, we should be 
putting probably 40 percent of our effort on Tunisia and 40 
percent on Libya and probably 10 percent on Algeria and 10 
percent on Morocco, for precisely the reasons you are talking 
about. Morocco is a lot further along.
    But, Morocco, as I said, had a huge Arab Spring, continues 
to have deep poverty and problems that need to be addressed. 
And do not forget--and this is important for Algeria, Morocco, 
and Tunisia--the--Morocco has an Islamist party, a promonarchy 
Islamist party that is the largest party, and that the Prime 
Minister is controlled by, right? So, Morocco has kind of made 
its peace with the Islamists in its way. Tunisia is making its 
peace, although it is more deeply polarized. And Algeria has 
made its peace, but there are some problems there, in terms of 
the political class in general and the weakness of political 
parties. But, they have all had similar experiences, in terms 
of the secular Islamist dialogue, they are all learning from 
each other. And I do not think any of these countries really 
has the silver bullet or the perfect model for the others to 
follow. As Haim said, Morocco is on its own path. It is aware 
of its challenges. And the main concern of Morocco-watchers is 
that the reform process slows to such a glacial pace that there 
is no progress. And all friends of Morocco want to do is help 
accelerate that process.
    So, for example--if you permit me, I have 10 more--15 more 
seconds--Morocco passed a wonderful new constitution. It has 
not passed most of the organic laws that put the constitution 
in motion. If you look at the most pro-Morocco Web sites, they 
are talking really only so far, including several packages of 
laws passed, about the increased participation of women in the 
decentralization organic law, but there is almost none of these 
post-new-constitution projects that have borne the fruit 
promised in 2011. So, this is the concern about the pace of 
reform in Morocco. If it slows too much, Morocco will suffer 
instability.
    Senator Risch. Thank you.
    You know, my time is almost up, and I wanted to ask a bit 
about--I think--and maybe we will get this in another round, 
but we really need to drill down into the details in Libya. You 
know, I think the world is focused on these two groups that are 
trying to make peace. I think you--both of you have underscored 
that that is just the tip of the iceberg, that, because of the 
numerous other conflicts that are going on, even if that works 
out, there are going to be a lot more challenges there. And I 
would like to hear your thoughts on that, but my time is up, so 
I will yield the floor, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thanks, to the witness, for great testimony.
    Question about Algeria. Question about Algeria and Morocco.
    So, on Algeria, President Bouteflika is in his fourth term, 
I think, and relatively old. As you look forward, what do you 
think the post-Bouteflika political, kind of, status will be? 
What is your prediction about Algeria, post-Bouteflika?
    Mr. Malka. That is the huge question, because what happens 
in Algeria will affect every country in the Maghreb and every 
country in the Sahel and potentially Europe, as well. Algeria 
is a crucial country. And in the 1990s, it faced a--fought a 
brutal civil war, a war against terrorism, where more than 
150,000 people were killed, and Algeria exported instability to 
the entire region, and even to Europe, where there were terror 
attacks linked to Algeria. So, what happens in Algeria is 
crucial.
    President Bouteflika came to power and ushered in a decade 
of stability and security free of the widespread violence that 
we saw in the 1990s. Sure, there are still protests, 
socioeconomic protests, as Professor Lawrence has mentioned. 
There is still an al-Qaeda insurgency in the mountains of 
Algeria, which occasionally attacks civilians and security 
forces. But, by and large, President Bouteflika has brought 
stability to Algeria, in part because of high oil prices, which 
allowed him to promote an economic stabilization policy to 
provide for the needs of his population. It is not clear that 
whoever takes his place is going to have the same kind of 
assets, tools, and power to hold together the various 
constituent groups and power centers within Algeria. Oil prices 
are declining, so, for this year, the first year in a long 
time, Algeria has had a budget deficit, a $50 billion deficit 
for 2015, where it had to tap into its reserves. That is a 
worrying sign for Algerians, most importantly, because it was 
in the 1980s when the price of oil collapsed that they began 
the process of political reform, which led to elections that 
were won by the Islamists, and then led to the civil war.
    So, the Algerians carry a lot of historical baggage with 
them from that period. And my concern is that what comes after 
Bouteflika is not going to be as stable, it is not going to be 
as certain, and it could have a negative impact on the region, 
as well.
    Dr. Lawrence. I do not have much to add, and I am curious 
to hear your Algerian-Morocco question. But, let me add, when 
Bouteflika came to power in 1999, he came to power on a 
reconciliatory platform. And one of the aspects of making 
Algerian politics right that was important to him was getting 
control of the military and security forces. With the sacking 
of General Mediene--Toufik Mediene, in August, in many ways I 
believe he has accomplished the last thing he intended to 
accomplish. So, I am actually looking for--and I have even 
heard talk about a 4\1/2\-term Presidency. You know, I feel 
like Bouteflika feels--feels like he is just about done. That 
was, like, the last piece of the Bouteflika puzzle.
    Now, if you are pro-Bouteflika, like a lot of Algerians 
are, this was getting control of occult forces in Algeria. If 
you are anti-Bouteflika and the corruption around Bouteflika, 
you saw the DRS as the last-standing institution strong enough 
to keep the Bouteflika clan in check, so you see the sacking as 
a problem. This just augers for more factional fighting among 
Algerian elites, following Bouteflika, and I do not see an 
accelerated push towards democratization in Algeria, in part 
because of what I was talking about, elite struggles.
    If I can add one more point, the fact that you have so many 
microprotests in all these countries, including Algeria, means 
that politics does not work. Citizens with grievances do not go 
through political parties, and they do not go through NGOs, 
they go to the streets. And then a oil-rich regime responds 
with direct aid in response to protests. So, that is a broken 
political system. And it will not be until NGOs are given more 
room to maneuver, which they do not have yet, and political 
parties develop some strengthen in Algeria, that you will have 
real politics.
    Senator Kaine. I agree with the points you made earlier 
about Tunisia, that we need to really help shore them up and 
help them succeed. I am also very worried about the next 
chapter in Algeria and your point, Mr. Malka, that Algeria will 
affect everything else.
    Let me move on to the Algeria-Morocco--there are a lot of 
similarities between the countries, including that President 
Bouteflika was born in Morocco, so there are many similarities. 
There are some significant differences--oil rich versus, you 
know, not a lot of oil assets on the Moroccan side. But, the 
poor state of relations between those two countries, it just 
seems like, if we are interested in civility in the region, 
doing what we can to help better the state of relations between 
Algeria and Morocco is really important. So, what would your 
advice to us be on that?
    Mr. Malka. That is a tough one, because both sides are 
entrenched in their position, and----
    Senator Kaine. With respect to western Sahara and other 
issues----
    Mr. Malka. With respect to western Sahara and a general 
regional rivalry, which, from our perspective, does not make a 
lot of sense.
    Senator Kaine. Yes.
    Mr. Malka. And with the security situation in the region 
being as it is, I think probably more difficult and challenging 
than it has been in at least 15 years, it would be in the 
interest of Algeria and Morocco and the region and the United 
States and Europe for the Algerians and Moroccans to work more 
closely together. It is in everyone's interests for that to 
happen.
    Unfortunately, I do not see a lot of potential for progress 
on that front at the moment. I do not see a lot of potential 
for Algeria and Morocco to resolve their differences and come 
together and start cooperating more closely. But, the U.S. 
Government, despite the fact that there is not a lot of 
progress, I think that it is something that the U.S. Government 
should continue to urge both sides to cooperate, even in small 
ways, to help improve security.
    Dr. Lawrence. I will add two data points to that. And I 
agree with that. One is, there have been a lot of attempts for 
Morocco and Algeria to cooperate on energy, on borders, on 
other economic activities, and every time it seems like there 
is going to be a breakthrough, the western Sahara ship blows 
up. A Minister travels to Moscow, makes an offhanded comment, 
and the next thing you know everything falls apart again.
    I have--a second point is, I have long argued that as 
Morocco democratizes, solutions for western Sahara get more--
get possible. So, Nabila Mounib, the head of this delegation 
that is been dealing with the Sweden IKEA dispute and all 
that--right?--she said once in a conference I was at, that the 
problem with western Sahara and Morocco was not that Moroccans 
did not believe it was western Sahara, it was that the western 
Saharan issue had always been [speaking foreign language] and 
that Moroccan citizens really have no say in--and now that the 
political parties and civil society are given openings, and 
then it is shut down again, and openings again to go down in 
the western Sahara area, you are increasingly have--hearing 
more about human rights in the western Sahara area, and seeing 
political organization in the western Sahara area. And I think 
the more progress that is made in democratizing the north and 
the western Sahara region, the more chances we will have for an 
eventual opening downstream, in terms of the Algerian-Moroccan 
dispute over----
    Senator Kaine. Great, thank you.
    Thanks, Mr. Chair.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Dr. Lawrence and Mr. Malka, for being here 
today.
    Dr. Lawrence, you mentioned just talking about some of the 
challenges facing youth in Morocco as well as Algeria. Mr. 
Malka, in your testimony, you talked about radicalized youth 
issues. Can you lay out the demographic of the youth population 
in North Africa?
    Dr. Lawrence. If I can just make--because I have the data--
right?--and then I will defer to Haim, which I mispronounced. 
The median age in Tunisia is 31. That is past transition--you 
know, the--30 is the cutoff the demographers use. The median 
age in Algeria and Morocco is 27. The median age in Egypt and 
Libya is about 24. And then when you get down to the 
Mauritania-western Sahara, that area, you are talking about 
median age of 19. So, we have----
    Senator Gardner. The median age in Libya and Egypt is 24, 
you said?
    Dr. Lawrence. Twenty four.
    So, we have youth-bulge issues for the medium term in 
Morocco and Algeria, for a longer term in Algeria and Libya, 
and for a much longer term in the Sahel area. But, in Tunisia, 
we are dealing with a different demographic.
    I do not--that is one data point--I do not know if, Haim, 
you want to say something more about that.
    Mr. Malka. Sure. I will just add that, the demographic 
issue is changing, also. I mean, we talk about unemployment, we 
talk about the lack of jobs. But, if we look at some of the 
other social factors that are going on--for example, the age of 
marriage has increased dramatically in North Africa, and it is 
comparable to that of Europe now. It is much higher than in 
other parts of the Middle East. In some places, in some 
countries, it is above 30 for a man to get married.
    Now, that has an impact--a direct impact on social 
stability. If somebody does not have a job, if they do not have 
a family, then they have less responsibility; therefore, they 
can go off to Libya to get a job, they can go to Libya to fight 
with a----
    Senator Gardner. Right.
    Mr. Malka [continuing]. Jihadist group, they can go to 
Syria to seek adventure and get married. So, these issues are 
deeply tied to radicalization, to some of the other social 
issues that are going on in the region. And I think we need to 
understand better how these different social issues underneath 
the surface are affecting the politics, stability, and 
security.
    Senator Gardner. And so, that delay in starting a family, 
is that primarily economic-driven? No opportunity, and so they 
put that off just----
    Mr. Malka. It is directly linked to economic opportunity, 
to the lack of jobs, because, in order to get married, one has 
to have an apartment, one has to have money to pay for a 
wedding, to be able to pay a dowry and sustain a family.
    Senator Gardner. And so, in terms of our economic policies 
through State Department and others--public diplomacy efforts, 
trade, economic efforts--have we adjusted State Department 
policies to meet that challenge?
    Mr. Malka. Well, part of the challenge is not just what we 
are doing, it is what these countries----
    Senator Gardner. Yes.
    Mr. Malka [continuing]. Need to do. And we have talked a 
lot about U.S. strategy and objectives and what we need to do, 
but these countries need to do lots of different things to help 
us help them. So, Tunisia, for example, almost 5 years after 
the revolution, still does not have a coherent foreign 
investment law. So, it makes it difficult for us to want to 
invest in Tunisian companies, because there are no clear 
banking rules, there are no clear insurance regulations. 
Tunisian capital is sitting on the sidelines and unwilling to 
invest in the local economy, because they are uncertain about 
the economic reconciliation law and whether they are going to 
be prosecuted for past financial crimes committed under the Ben 
Ali regime.
    So, it is not just about what we need to do. These 
countries also have to take certain steps to improve their 
economy, to disentangle the authoritarian economic systems that 
perpetuate unemployment, lack of education, monopolies, import 
regulations that support smuggling in the informal economy, and 
a long list of other economic reforms that they need to enact.
    Senator Gardner. Dr. Lawrence.
    Dr. Lawrence. Just two quick data points, Tunisia-specific, 
which I think is the most important that we are dealing with 
today.
    Tunisia is working on all these laws. Two MPs from the 
Finance Committee were here last week, and they are along the 
way, and they are having discussions, and there are drafts 
going up to Parliament, but democracy is slow, and these things 
take months to negotiate. And so, Tunisia will have an 
investment law, probably wintertime, maybe banking law next 
year. This economic reconciliation package has been taking 
forever, and it is caused a lot of consternation. So, we are 
talking about a 2-, 3-year window before Tunisian reforms begin 
to have the salutary impact that we are looking for to help us. 
So, we are going to have to support Tunisia, independent of 
their reform, and getting out ahead of the reform.
    Another data point is, Tunisia is having a hard time 
meeting payroll. So, how do you reform, if you cannot even pay 
your government workers? So, let me give you----
    Senator Gardner. What percentage of the public in Tunisia 
is employed by the government?
    Dr. Lawrence. Oh, it is 25 percent, in that range--20-25 
percent.
    Religious education. Tunisia has the weakest religious 
education infrastructure in the three countries, Tunisia to the 
west. Ten percent of imams and mosques have any religious 
training. Only half of them have college degrees. So, you have 
imams in the mosques who need to be trained--right?--who have 
received almost no training. And this is a legacy of the Ben 
Ali era, when there was no investment in religious education.
    And this gets back to messaging, if you permit me just 10 
more seconds. We are not doing well in messaging. There is that 
whole youth culture across the region----
    Senator Gardner. ``We,'' as in our----
    Dr. Lawrence. Yes.
    Senator Gardner [continuing]. Public diplomacy efforts.
    Dr. Lawrence. Yes. Yes. We have not really dipped in 
enough. We are doing a lot of, you know, counterterrorism 
messaging, but we are not engaging enough with our youth and 
their youth, you know, talking about common interests. We could 
do a lot in the area of cultural exchange and messaging to 
young people that we are not doing yet.
    Senator Gardner. Would love to follow up with you on how we 
can increase opportunities to engage in better public diplomacy 
efforts, particularly with that demographic. I think that is 
something that we could be very much involved with and 
effective with.
    I want to shift a little bit to the Sinai Peninsula a 
little bit. Talk about Egypt's counterterrorism efforts on the 
Sinai Peninsula and what the United States can do to help 
combat the threat of extremism in the Sinai.
    Mr. Malka. The Egyptians have a growing problem in the 
Sinai, and it is not just contained in Sinai, it is shifting 
over to the other side of the Suez Canal. We saw, just this 
morning, another attack in northern Sinai, but there have been 
attacks in Egypt proper, as well. So, this is an ongoing 
challenge for the Egyptians that is getting worse.
    The problem in Sinai is not just an issue of simple 
counterterrorism, because Sinai has been a neglected region for 
decades. There is not one government that has been responsible 
for neglecting Sinai, but it is many, many of Egypt's past 
governments and policies that have largely alienated the 
population. So, there is not only a domestic or indigenous 
Bedouin population that supports radical groups, but there is a 
radicalized Palestinian population, primarily in northern 
Sinai, with connections to Gaza.
    So, this seems to be a long-term challenge for the 
Egyptians, and the politics of exclusion in Egypt have fanned 
the flames and made this problem worse, because, as the 
Islamists that were in power have been weakened and divided, 
some of those Islamists who, at one point, may have chosen the 
path of politics are now choosing the path of violence, and 
that strengthens the ranks of jihadists and other militant 
groups in Sinai.
    Senator Gardner. And what should the United States policy 
would be to address that?
    Mr. Malka. Excuse me?
    Senator Gardner. What affects--changes should United States 
policy take--undertake to help Egypt address this?
    Mr. Malka. Well, we help with general counterterrorism and 
military cooperation, intelligence-sharing. That has been 
ongoing. I am not sure that we have a silver bullet for how the 
Egyptians can address that problem. This is a long-term threat 
that they face. We can try to encourage more political 
inclusion, more tolerance for political voices in Egyptian 
politics, but that is a long-term process that is not going to 
change the current environment in Sinai anytime soon.
    Senator Gardner. Thanks, Mr. Chairman.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for being here this morning.
    There have been a number of stories that I have read--news 
reports--about Tunisia's transition to democracy and the role 
that women played in that, the positive role. I wonder if you 
could talk a little bit about the role of women in Tunisia and 
compare that to, say, Morocco and Algeria, and what we can do 
to support a positive role for women in those societies.
    Dr. Lawrence. Tunisia suffered, before the revolution, from 
the same problem all these states suffered. It is what call, in 
the Middle East studies business, ``regime feminism,'' where 
feminists became so close to the regime to get political and 
economic rights guaranteed that, when the regimes themselves 
became disqualified, the women's movements were negatively 
affected. So, for example, the leading feminist organization in 
Tunisia took 6 to 9 months after the revolution to even have a 
fruitful meeting without a lot of, you know, clashing between 
the groups because of the closeness to the Ben Ali regime and 
the Trabelsi family and all the corruption that came before. 
They were reorganized enough by 2013 that they played a major 
role in the--keeping democracy on track in Tunisia and keeping 
women's rights a central focus in the summer of 2013. And there 
are some people that feel that Tunisian women should have 
gotten the Nobel Peace Prize along with others, and they played 
an important role.
    Tunisia has a long history of parity for women. They have 
done an amazing job getting women into Parliament. I think it 
is 38 percent in Parliament, one of the highest in the world. 
They had gender parity, according to one UNDP metric, before 
the revolution. And so, for me, elite Tunisian women have done 
well in the past, they are doing well now. I think my main 
concern about women in the other countries, including Tunisia, 
is that poorer women, marginal women working in the informal 
sector are not doing well. And the Nobel prize-winning leader, 
Abbassi, yesterday, had some very interesting data on 
unemployment among rural Tunisian women, and it is pretty 
alarming.
    Mr. Malka. Thank you. I do not have much to add to that. I 
mean----
    Senator Shaheen. Can you do the comparison to Morocco----
    Mr. Malka. To Morocco.
    Senator Shaheen [continuing]. And Algeria?
    Mr. Malka. Sure. I think, at the elite level, again, in 
Morocco and Algeria you will also find women who are at the 
forefront, who are active, who are well educated, articulate, 
and play a role. I mean, you have government Ministers in 
Morocco that are women. So, at the elite level, I am always 
impressed when I go to Morocco and when I meet with Moroccan 
business leaders, Tunisian leaders. It is always a woman who is 
spearheading and leading the delegation. But, it is the lower 
level of society which is primarily uneducated, you have a 
large problem with rural illiteracy for women in many of these 
countries. And so, the problem is not that the elite are not 
progressing, but that the gap between the elite and the more 
underprivileged sectors of society is widening dramatically.
    Senator Shaheen. And is it widening more for women than men 
in those societies?
    Mr. Malka. I would say it is, in part because of gaps in 
literacy, primarily, in a place like Morocco and Algeria.
    Senator Shaheen. You talked about--or you alluded to ISIS 
fighters from Tunisia and Morocco and northern Africa. Is there 
a reason why those societies have served as fertile recruiting 
grounds, maybe more fertile even than some other more 
repressive societies?
    Mr. Malka. That is one of the huge questions that we----
    Dr. Lawrence. We talk about that all the time.
    Mr. Malka [continuing]. Keep trying to answer and keep 
trying to figure out. I mean, it is really an irony that the 
country with the most hope for political progress, for changing 
the social, political, economic dynamics, Tunisia, has produced 
the largest number of foreign fighters in Syria, more than 
4,000 foreign fighters in Syria since 2011, and the largest 
number of foreign fighters in Libya now fighting with ISIS. 
There is not one reason for this; there are many reasons. And 
we keep trying to analyze the drivers of radicalization in 
these countries. Some people join because of ideological 
reasons, some people join because of economic reasons, some 
people join because they want adventure and--or a sense of 
power. So, there are lots of reasons.
    Senator Shaheen. When----
    Mr. Malka. I am sorry.
    Senator Shaheen. Let me just dig down on that a little bit 
further. When you talk about ``there are lots of reasons,'' how 
do we determine what those reasons are? Are those based on--I 
mean, we have not done a poll, I assume, of ISIS fighters, so 
these are based on anecdotal interviews with people who have 
gone off to fight----
    Dr. Lawrence. Before he continues, there has actually been 
some polling of ``why your friend joined ISIS.'' So----
    Senator Shaheen. Okay.
    Dr. Lawrence [continuing]. We actually have polling data on 
that, but go--continue----
    Mr. Malka. There is anecdotal evidence from--for example, I 
was recently in Tunisia and spoke with a young man who had a 
job at a production company. He had told us that two of his 
friends from high school, from his gang in the neighborhood--
and I do not mean that in the negative sense, just his groups 
of friends----
    Senator Shaheen. Right.
    Mr. Malka [continuing]. Went off to fight in Syria and were 
on Facebook with him, trying to encourage him to go to Syria. 
So, I asked him, ``Why did they leave and go fight in Syria? 
And why did you stay?'' And he did not really have a good 
answer. And security services are working very hard to try to 
build profiles of jihadist fighters and to try to understand 
why people are going to fight jihad. And they are having a 
tough time coming up with the profiles, as well, because there 
is no single profile.
    One of the interesting things that I learned on my recent 
trip to Tunisia, I was going to speak with civil society 
activists in Tunis, and I was walking into the building, just 
sort of a decrepit, you know, nondescript building. I was 
walking up the hallway and into the office, and I saw lots of 
pictures and posters on the wall, of the revolution, people--
young people waving Tunisian flags and out in the streets and 
protesting and demanding a better future. Those pictures 
demonstrated and captured the hope that many young people had 
of changing their societies, of changing their futures, 
changing their destinies. And when they saw that that reality 
was not changing as quickly as they expected it to change, they 
started to lose hope. And it is that despair--it is that 
despair which is driving people to Syria, to Libya.
    And what is interesting is, it is not just Syria and Libya. 
Despair is driving people to take their lives into their own 
hands and try to cross the Mediterranean Sea and get to Europe. 
People are committing suicide in Tunisia, young people, in 
higher numbers. And it is very hard to get accurate numbers of 
this. But, jihadism and radicalization is one avenue for people 
who feel despair and hopelessness.
    Senator Shaheen. Rising expectations.
    Mr. Malka. Yes.
    Dr. Lawrence. If I may add, I think the simplest rubric to 
approximately everything he said, and why I focused on it in my 
oral testimony, is inclusion/exclusion. You are included 
politically, you are going to be more likely to not pursue 
these. You are included economically, you are more----
    And just to offer some data points on what Haim just said 
at the end, there have been 400 self-immolations since 
Bouazizi, including more just last month in Tunisia. So, there 
is various types of escapism. There is escapism through 
suicide, there is escapism through going to fight a jihad, 
there is escapism running to Europe, there is depression, there 
is--at one point, a Libyan expert said, ``We do not need 10,000 
U.N. peacekeepers in Libya, we need 10,000 psychiatrists.'' You 
know, so there is society-wide----
    Senator Shaheen. Yes.
    Dr. Lawrence [continuing]. Youth dislocation and despair 
that need to be addressed. And so, as I say, in all of our 
strategizing and all of our thinking, think youth, think, ``How 
does this program affect youth? How am I including youth into 
it?''
    Senator Shaheen. Thank you both.
    The Chairman. Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    I want to go back to Egypt just a minute, if we may, and 
then I have one quick question on Tunisia. I would like to come 
back to that.
    But, first, let us talk about Egypt. I am concerned. 
Secretary Kerry, just in August, had a dialogue over there, and 
is encouraging Congress to sort of turn a blind eye to some of 
the social concerns and governmental concern or governance 
concerns to continue to support them from a security 
cooperation perspective. Do you think we are finding the right 
balance between encouraging them to--Sisi, particularly--in the 
direction of good governance at the same time that we, 
obviously, are still supporting them, from a security 
cooperation perspective? Would you respond to that, Mr. Malka?
    Dr. Lawrence. I heard Mr. Malka, so I----
    Senator Perdue. Oh, I am sorry, go ahead. I----
    Dr. Lawrence. I will take the first stab and----
    Senator Perdue [continuing]. Thought you were telling him 
go ahead.
    Dr. Lawrence. No, I will take the first stab and then I 
will----
    [Laughter.]
    Dr. Lawrence. The short answer is no. I think, when it 
comes to these sort of authoritarian leaders, we have been 
hearing from civil society in the region for decades, and we 
know what you do. What you do is, you signal your displeasure 
in public and private ways, in ways that make things better. 
You--as I mentioned, there are 177 parliamentarians that we 
could get released from jail. There are hundreds with death 
penalties for crimes being committed we could help get out. 
Just as the beginning of the 40,000 Egyptians that have been 
jailed.
    Senator Perdue. So, you are--what you are saying, then, 
is----
    Dr. Lawrence. Yes.
    Senator Perdue [continuing]. We are really sending 
conflicting messages. Is that right?
    Dr. Lawrence. Yes. We are sending conflicting messages, and 
it is not only demoralizing Egyptians, the 90 percent that did 
not show up to vote, it is demoralizing the whole region, like, 
``What are you doing?'' Right.
    Senator Perdue. So, are you concerned that Sisi turns to 
Moscow recently as a function of this, or is this related?
    Dr. Lawrence. Absolutely. I mean, he turned to Moscow, in 
part, because he thought he could get support without strings. 
And this is a real problem. And so, you used the word 
``balance.'' ``Balance'' is the right word. I was the cochair 
of the U.S.-Egypt Science and Technology Fund for 4 years, and 
it was part of that 250 million--I do not know what it is at 
right now--of assistance that we benefit more from that 
program, or as much as the Egyptians do, right? A lot of our 
arms manufacturers--right?--our agriculture--you know, it is 
not that the Egyptian assistance--that is why there is a big 
lobby for it. It is not just that people love Sisi, right? This 
Egyptian assistance that goes back to Camp David benefits the 
United States in a number of ways--business community, science 
community, agriculture, military----
    Senator Perdue. And peace in the region, where their 
relationship with Israel, the----
    Dr. Lawrence. Yes.
    Senator Perdue [continuing]. Last decade----
    Dr. Lawrence. Yes.
    Senator Perdue [continuing]. Or so, and Jordan.
    Dr. Lawrence. And so, I am all for full engagement with 
Egypt. It is more about signaling, right? Are you signaling 
that you are concerned? Are you helping getting some people out 
of jail? We recently spent a lot of political capital getting 
Mohamed Soltan out of jail. Mohamed Soltan is now outspoken, 
and the Egyptians may be regretting letting him out, but that 
sends an important message to everybody--to Islamists, modern 
Islamists, radical Islamists, non-Islamists, secular, 
opposition in Egypt, the 15,000 that have been arrested that 
are not Islamists in Egypt--you know, that we care about more 
than just geopolitical stability, and that we would--and that 
we understand that long-term geopolitical stability depends, in 
part, on democratization of these societies and opening up on 
human rights.
    Senator Perdue. And also that the economy is moving. Right 
now, Egypt's economy is not.
    Dr. Lawrence. All the indicators are terrible on the 
Egyptian economy. And there is only so many checks the gulf 
countries are going to be able to write----
    Senator Perdue. So, you create a disenfranchised--
particularly young people coming into the workforce early in 
their career----
    Dr. Lawrence. Yes.
    Senator Perdue [continuing]. They are disenfranchised. You 
have mentioned that in Tunisia, in the depression you are 
talking about----
    Dr. Lawrence. Yes.
    Senator Perdue [continuing]. The suicide rates, and so 
forth.
    Dr. Lawrence. Just as bad in Egypt.
    Senator Perdue. Just as bad in Egypt----
    Dr. Lawrence. Yes.
    Senator Perdue [continuing]. Is that right?
    Dr. Lawrence. Yes.
    Senator Perdue. Okay.
    Dr. Lawrence. Haim, do you want to add something?
    Mr. Malka. It is difficult to strike----
    Dr. Lawrence. Yes.
    Mr. Malka [continuing]. The right balance between our 
military cooperation and support for human rights. I mean, Sisi 
is playing a different game. The Gulf States are playing a 
different game. The Russians are playing a different game. And 
the Egyptians know that they have alternatives. When we were 
debating here--and it is an important debate--whether there was 
a military coup in July 2013--when we were debating that, the 
gulf countries were writing checks for billions of dollars, 
saying, ``Okay, if you are going to cut aid, if you are going 
to hold up transfer of weapons, no problem, we have other 
alternatives.'' And that weakens the American hand, because 
Egypt is important, for lots of things, for the overflight 
rights, for the preferential treatment in the Suez Canal, for 
Arab-Israeli peace, for its center of gravity, not only in the 
Levant, but also in North Africa, as well. And that is 
important. And those serve a lot of global American interests. 
So, trying to promote human rights and trying to get President 
Sisi to do what he clearly does not want to do, when we do not 
have a lot of leverage, is difficult.
    What I think we need to be focusing on in Egypt, and in 
other countries as well, is less about talking about democracy 
and more about promoting tolerance and inclusion and rethinking 
this tolerance that many countries, like Egypt, which used to 
be very cosmopolitan, multiethnic, multireligious societies 
once upheld, we need to promote this inclusivity and this 
tolerance in Egypt.
    Senator Perdue. When you have got Tunisia--and I would like 
to go back to that in the time remaining--that, you know, you--
after the overthrow of President Ben Ali, something like 20 
percent as--I have seen estimates as high as 20 percent of the 
mosques there were dominated by radical imams. And so, that 
throws another source of imbalance in Tunisia, which, so far, 
has been a model, in terms of what we can hope for in these 
countries in that area. Are we doing what we should be doing in 
Tunisia to--you know, to support the balance toward tolerance, 
as you say, and inclusion? I mean, I like those two words. I 
mean, are we--as a country with a very dominant foreign policy 
position in the region, are we doing what we should be to 
encourage Tunisia in the same vein?
    Mr. Malka. Well, I think----
    Senator Perdue. And to help them--not just encourage them, 
but to help them.
    Mr. Malka. Sure. There have been positive examples of how 
the United States has played a positive role urging political 
consensus and compromise in Tunisia. And I think the former 
Tunisian Ambassador played a critical role at different points 
in Tunisia's crises in 2013, in 2015, and continuously urged 
the parties to come together, despite their differences. And 
that made a difference. And that is why it is so important that 
we are fully engaged, that we do have larger diplomatic staffs 
in the region, because U.S. engagement and diplomacy matters at 
critical junctures. And when we are not active, when we are on 
the sidelines, other countries with different interests will 
come in and promote narrow agendas that often time promote 
conflict and--sustained conflict rather than political unity 
that is so important for these countries to try to get beyond 
many of the problems that they face.
    Dr. Lawrence. Let me add that, in Tunisia, they lost 
control of many of their mosques. I know Tunisians that just 
stopped going, because there was nothing there for them----
    Senator Perdue. Right.
    Dr. Lawrence [continuing]. That they, you know, could 
tolerate. On both sides of this coin, either government-baked 
sermons that were just impossible to listen to, you know, 
scratching on the--or all the way to this--``What is this 
salafist saying? It does not represent my version of Islam.'' 
Tunisian government is doing better at getting control of that, 
but the problem is that the government has been more focused on 
closing mosques and getting rid of certain imams than it has 
been on actually addressing the issue of what kind of Islam 
they want to have in Tunisia.
    And, in terms of the other side of the inclusivity piece, 
the Islamists have included in Tunisia--and it is an example 
for the region, model for the region--but, the inclusivity 
question in Tunisia right now has more to do with economic 
security. So, how do we include old-regime elements--this is 
the economic reconciliation piece--without forgiving all of the 
sins that cannot all be forgiven? And how do we reform the 
security forces without sweeping everything under the rug? 
Algeria did that. Algeria had no transitional justice after 
their wonderful reconciliation ending the war. And a lot of 
Algeria's problem is because they never did that. Tunisia has 
an opportunity to actually reform the security forces and 
actually reform the economy in ways that address constructively 
and proactively with the former regime elements that want to be 
a part of things, but some of them want to be a part of it with 
no cost and with no historical rendering.
    Let me just say one more thing on Egypt that I think the--
the catch phrase is ``holistic.'' You can do counterterrorism, 
as Haim said, but you have to do it in a holistic manner that 
addresses economics, which Sisi is talking about before his 
trip to the U.K., and politics, which he is not talking about 
at all. The long-term social contract in all of these countries 
always was, before the revolutions, ``Benefit economically from 
the--whatever we are doing, leave the politics to us.'' The 
Arab Spring turned that upside-down and said, ``No, actually, 
politics is a function of economics. Economics is a function of 
politics. And we need to do both politics and economics.''
    Sisi is trying to go back to the old system, where, ``It is 
a security argument. I am going to help you benefit 
economically, but leave the politics to me.'' And----
    Senator Perdue. Well, it looks to me like we are losing 
influence over Sisi, too----
    Dr. Lawrence. Yes.
    Senator Perdue [continuing]. Because of this power vacuum 
that I see being created----
    Dr. Lawrence. So, we have to walk and chew gum. We have to 
continue to engage with him and find common ground, continue to 
push him. I mean, he may not even have had these elections if 
he had not been pressured, in part, by us.
    Senator Perdue. Right.
    Dr. Lawrence. And so, we have to remain engaged. And, as I 
said, I do not think we should cut one dollar of assistance to 
Egypt, but I do believe that we need to use other levers at our 
disposal to continue both the signal to the regime that it 
needs to get better, and to Egyptian civil society that all 
hope is not lost.
    Senator Perdue. Right.
    Thank you both.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    To the issue of Egypt. And I know, Dr. Lawrence, you 
mentioned, ``As Egypt goes, North Africa goes.'' I think that 
is what you said earlier. Go back, if you will, and explain, 
from your perspective, both of you--we had Mubarak that we cast 
aside quickly. We had the Muslim Brotherhood, and conflicting 
issues there. And now we have Sisi, that is a professional, 
that we withheld support from. Just walk through that and tell 
me the impression, if you will, that we have left in the 
region, relative to our varying support, if you will, for--and 
lack of support--for the entities that have come and gone, and 
where that leaves people to think about where we will go in the 
future.
    Mr. Malka. Thank you. I think it sends an ambiguous 
message. And people in the region are confused by U.S. foreign 
policy. I mean, in Egypt, in Tunisia, in lots of conversations 
I have had throughout the last 4-5 years, people will say to 
me, ``Well, why is the United States supporting the Salafis? 
Why is the United States supporting the Muslim Brotherhood? Why 
does the United States not care about democracy and human 
rights? And why has the United States forgotten the liberals?'' 
I mean, every different constituency in the region believes 
that the United States is shunning them and not paying enough 
attention to them, and not helping them. And that is a function 
of our policies, which have not necessarily been clear. We 
supported--first, we supported Mubarak stepping aside, we 
supported the Morsi government and the Muslim Brotherhood--or 
we did not necessarily support them, but we engaged with them. 
We accepted President Sissi, when he came to power. So, there 
does not seem to be, from the perspective of the region, a lot 
of coherence to this policy. And I think it leaves people 
confused and unsure about what the United States is going to do 
next.
    Dr. Lawrence. Let me add to that, that--and I agree 
entirely with what Haim just said about confusion in the 
region. But, we can be clearer. We should have been clearer in 
dealing--in our dealings with the Muslim Brotherhood during the 
interim period. And for all of the economic problems that Egypt 
had during that period, it was actually the least violent 
period in Egyptian history in the last 10 years, was the--I 
mean, sorry, since the revolution--was the period that Morsi 
was in power. In part, for--another point I want to make here, 
and I call this the ``chain of conversations.'' We need, in our 
rhetoric and our engagements, to support hardcore secularists 
talking to the secularists willing to engage with Islamists, 
talk to the moderate secularists and the moderate Islamists and 
encourage that conversation, encourage the conversation between 
the moderate Islamists and the democratic Salafists, encourage 
the conversation between the democratic Salafists and the 
violent Salafists, because the more people see hope in an 
inclusive democratic system, the less they are going to engage 
in spoiler activities and violent activities at each end of the 
spectrum. And we have spoilers on both ends.
    In Libya--to shift to Libya for a minute--Libya is a 
complicated place. If you look at Libya polling, most Libyans 
want Sharia on the constitution--right?--something that does 
not make sense to a lot of Americans. But, at the same time, 
most of the Libyans think the most important thing that a 
Libyan politician or a Libyan political party can do is have 
good relations with the West. So, how do you explain that? You 
explain that, because Libyans are both being revolutionary and 
reasserting their Islamic identity when Islam was manipulated--
right?--in the Qadhafi years, and, at the same time, they were 
cut off from the West for decades by sanctions, and they want a 
robust engagement from the West, they do not feel they are 
getting.
    Moving over to Tunisia, we had the same----
    The Chairman. Wait a minute, I----
    Dr. Lawrence. Yes.
    The Chairman [continuing]. I do not really want to do that. 
So----
    Dr. Lawrence. Okay.
    The Chairman. So, back to Egypt, though.
    Dr. Lawrence. Yes.
    The Chairman. What I am trying to say about the Muslim 
Brotherhood, that they were the most inclusive government that 
has existed in recent times?
    Dr. Lawrence. Absolutely not. They won with 51 percent of 
the vote, and they----
    The Chairman. Well, what is your point, then?
    Dr. Lawrence [continuing]. They ruled in a 50-percent--51-
percent majoritarian way. They were just less violent and, by 
and large, more respectful----
    The Chairman. But----
    Dr. Lawrence [continuing]. Of their political adversaries 
than the precedent and the subsequent regimes----
    The Chairman. But, to the question----
    Dr. Lawrence. Yes.
    The Chairman [continuing]. What signals, through those 
various gyrations, have we sent to Egypt and, from your 
perspective, ``as Egypt goes, North Africa goes''--what----
    Dr. Lawrence. Yes.
    The Chairman [continuing]. What has been the message that 
has been heard there through these multiple gyrations?
    Dr. Lawrence. Well, I think our biggest failing was not 
anything during the Morsi period. And I know the diplomats that 
worked hard in the April-to-June timeframe of 2013 trying to 
avert the coup. Morsi was offered a deal, similar to the deal 
the Ennahda Party got in Tunisia to step down. He got 
conflicting advice, so then Nushi told him to take the deal. 
Adderwan told him not to take the deal. And Morsi went with the 
``stick it out'' philosophy, when he could have stepped down 
and--as the Tunisian Islamist Party did, and accept a 
transitional government. So, that was a piece of it.
    I do not think, during the Morsi period, there is much more 
the United States could have done, except to make clear that we 
were not favoring Islamists as Islamists. We were fading 
Islam--we were favoring Islamist democrats as democrats.
    I think, come the coup in July 2013--and I was on BBC 
America July 4th, saying this is a coup, you know--it was a 
coup. And I think, by not calling it a coup and by reacting in 
a confusing way, we alienated the entirety of Egyptian youth. I 
mean, I was an election observer in 2013 and--or 2014, in 
Egypt, the last elections before this one, and everyone voting 
was over 40. I mean, Egyptian youth were just not there. And if 
you ask Egyptians under 35, you know, ``What is your view of 
the United States?''--it is not just confusion, it is disgust 
about how the United States did not support democracy at a time 
that mattered. Now, these people did not know how hard U.S. 
diplomats tried to keep the Egyptian revolution on track. And 
it was a valiant effort. But, getting too cozy with Sisi too 
quickly sent messages that are problematic now----
    The Chairman. Well, I did not think we got cozy enough. I 
will be honest.
    Dr. Lawrence. Yes.
    The Chairman. We withheld support. I did not think that 
indicated a lot of coziness. And so, I would disagree 180 
degrees. I think we left them hanging out there. They did not 
know whether we supported them, or not. As was mentioned 
before, they got tremendous support from other people in the 
region, and, at a moment in time when we might have helped 
shape some of these issues that you are laying out, we were in 
a quasi-mode, where, you are right, we did not call it a coup, 
but, at the same time, we were withholding support for them, 
militarily, at a time when they needed some show of support 
from the United States. So, I could not disagree more. I mean, 
we did not cozy up very quickly. I mean, am I missing 
something?
    Dr. Lawrence. Well, my view may be a little more nuanced 
than I have made it sound, but let me say this. Egypt gets a 
huge amount of military assistance. So, no withheld assistance 
during the period we were withholding it had much of an impact 
on Egypt. It had a big impact on U.S. interests, you know, that 
liked to have a certain amount of arms sold to Egypt, but it 
did not really have much of an impact on Egypt.
    I think, at a moment of a coup, if you immediately line up 
with the coup-maker and say, ``We are with you,'' yeah, in a 
post-revolutionary country, that is an important issue. And, 
you know, we have had American citizens held in Egyptian jails, 
one of whom I mentioned. We have had a human rights 
catastrophe. And it is watched in 24/7 news cycles across the 
region. So, if our goal is only short-term geopolitical 
advantage, and if our only goal is having a strong ally in a 
region on fire, then you are right and I concede. But, if we 
want to have a policy that has medium- and long-term success 
and which captures the imaginations and the efforts of young 
people, withholding aid to Sisi for a little while, only to 
restore it, is the wrong message. It was not a strong----
    The Chairman. So, the right message was? I have been 
confused by the testimony here. But, the right message----
    Dr. Lawrence. Pushing for political inclusive outcome in 
Egypt as hard as we could.
    The Chairman. Why would Sisi not see that to be in his 
interest now?
    Dr. Lawrence. Well, I would say that he----
    The Chairman. I mean, he is a smart guy.
    Dr. Lawrence. Yes.
    The Chairman. He is a smart guy. He is----
    Dr. Lawrence. Yes.
    The Chairman [continuing]. Educated. He is a leader. He----
    Dr. Lawrence. Yes.
    The Chairman [continuing]. Does want to be there for the 
long haul. Why would he not view greater inclusiveness, over 
time, in Egypt to be in his interest?
    Dr. Lawrence. I would say--and I welcome Haim to chime in 
if he wants, but I would say that he chose the comfortable 
path, and the comfortable path was to demonize the half of 
Egyptian society that had voted for the FJP, the strong quarter 
of Egyptian society that supported them, and now stand, 
basically, completely alienated from Egyptian politics, and 
restore the pre-revolutionary order. And it is an order that 
worked, in his mind; it is an order that was successful in 
keeping occult forces at bay. If your main issue is the 
ideology of your adversary--right?--and excluding that ideology 
of--at all costs, then that is the reasonable course.
    What I have been arguing all along is that the point of the 
Arab Spring was that everyone would have a seat at the table, 
and everyone who played the democratic game would get their 
seat. Right? That was not Sisi's view. Sisi's view was, ``I 
will exclude my ideological enemies, en masse''--by the 
millions, in terms of voting, and by the tens of thousands in 
jail--``because I do not agree with them ideologically.'' It is 
a formula that can work, to some short-term degree, but I do 
not think it bodes well for Egypt's long-term political and 
economic development.
    The Chairman. Mr. Malka.
    Mr. Malka. Yes, I think it is a little bit more complex. 
And what was interesting was, in July 2013, who President 
Sisi's allies were. There were Salafi political parties that 
supported President Sisi's takeover of Egypt. And----
    Dr. Lawrence. As a survival tactic.
    Mr. Malka. Well, as a survival tactic, as a political 
tactic. Because they are also competing for Islamist votes 
against the Muslim Brotherhood, but that is sort of a separate 
issue. So, I think, inclusivity, yes, it is important for long-
term stability, absolutely. But, it is not that Sisi excluded 
everyone, and there are different elements within Egypt that 
are playing a role. Granted, they have not done very well in 
recent parliamentary elections, but, I think, over time, the 
goal should be to expand space for other voices in the Egyptian 
political system. But, as long as opposition political forces 
believe that the game is already cooked, that the outcomes are 
already set, there is less of a willingness to participate. And 
that goes for Tunisia, it goes for Morocco, it goes for other 
countries, as well.
    The Chairman. What did that signal--us going into Libya. We 
had worked with Qadhafi to rid the country of weapons of mass 
destruction. Certainly, he was not a good person. No question. 
That is an understatement. But, what signal did that send, when 
an uprising occurred there? We took him out. What signal did 
that send to the region? I am just curious.
    Mr. Malka. Well, I was in Morocco when the bombing campaign 
started, and everyone that I met with during that visit was 
warning us against what was happening, was warning not to get 
involved militarily in Libya, and to just leave the state as it 
was. I think the problem was going in without a strategy for 
how to put Libya back together after Qadhafi, and that is where 
things fell short. And I think that sends more of a signal, 
rather than the initial military intervention. What sends a 
signal is the lack of a strategy. And then, in the--the 
perception that, after deposing Qadhafi, that the United States 
walked away and left Libya to fall apart to its own devices. 
That sends a signal that the United States is not really 
committed, that it does not follow through, that it only has 
short-term interests, and not long-term interests. And this 
goes back to my initial point that, if we are going to be 
engaged, we need to be engaged for the long haul, we need to 
manage the risks, and we need to be committed to following 
through.
    Dr. Lawrence. If I may add to that. Algerians felt very 
strongly that way, too, and gave us strong advice to stay out 
of Libya for these reasons. They predicted the outcome.
    Moroccans and Tunisians, in terms of the population, by and 
large, were very much in favor, because they saw our action as 
a pro-Libyan population. What people often forget is, half of 
Libya had already broken away by the time NATO got involved. 
So, it was not an issue of us going in and toppling Qadhafi. We 
did not even take Qadhafi out. It was Libyan militias, after--
the convoy was bombed, but the--when the convoy was bombed, it 
was not even bombed knowing Qadhafi was in it. The civil war 
that would have happened in Libya would have gone on for much 
longer without the NATO intervention, in my opinion, but I 
agree wholeheartedly with Haim's answer to your question and, 
insofar as that was the premise of your question, that going 
into Libya without a plan to stabilize Libya afterward was a 
mistake.
    Now, let me add one thing. I was on all five of the State 
Department working groups on Libya in 2011. We had a great 
plan. What happened was--after the fact, is that a succession 
of Libyan governments were never ready, did not have the 
bandwidth, always wanted the sort of next iteration of the 
process--the minister be named, the vote, the--to happen. And, 
by the time Libyans had realized it was too late, it was too 
late. And now, a lot of Libyans have taken to blaming the 
United States for not having followed through.
    But, I would argue wholeheartedly that, although the United 
States have--should have devoted more diplomatic bandwidth to 
Libya all along, the mistake, post-revolution, was primarily a 
Libyan mistake and a Libyan inability to accept international 
assistance, not primarily a Western mistaken in planning.
    The Chairman. Well, I thank you all for being here.
    I asked the questions, not to in any way cast blame or 
anything else, but to--you know, here we are, the purpose of 
these hearings--and this is the last one--is to help us 
``develop,'' as a committee, an approach to the Middle East. 
And yet, what I see, and what I see continuing to happen, is 
just a series of sort of ad hoc steps--that have been going on 
for some time; again, I am not in any way--it is just an 
observation--a lack of any real consistencies. And the thought 
of maybe developing a Middle East policy with so many 
countervailing forces, if you will, at work, and each country 
being so different, relative to what they are dealing with, 
somewhat, you know, makes the task of ``having a Middle East 
policy'' somewhat daunting.
    And I am getting ready to sign off, here, and thank you all 
for being here, but would either one of you all want to respond 
to that?
    Dr. Lawrence. I think it was Yitzhak Rabin that used to 
say, ``You have to fight terrorism like there is no dialogue, 
and you have to have dialogue like there is no terrorism 
problem.'' And I think, you know, the degree to which, going 
forward, we can emphasize with vigor our commitment to 
democracy, human rights, and inclusive dialogue while, at the 
same time, going after the bad guys in an aggressive way--and, 
you know, bad guys who will stay bad guys; there is always bad 
guys.
    And if I can add one more point, in--there is always--
this--in every society throughout history, there is always very 
nasty people who want to do nasty things. For me, the main 
issue is, What sea are they swimming in? Is it a sea of 
population that is sympathetic because they have--they are 
using the same grievances that population has to justify their 
awfulness? Right? Or is it a population that is turning against 
them that is beginning to see dividends from the governments, 
local and national, and international assistance that seems to 
be taking their grievances seriously and at least beginning to 
address them? And if you tip that balance in the right 
direction, those bad guys have smaller and smaller areas to 
operate in. So, this is my----
    The Chairman. Yes, I would just add that some people would 
observe that our pursuit of democracy, when countries have not 
yet been ready for that, has helped create much of the chaos 
that exists in the region.
    Dr. Lawrence. And I would argue it is coming anyway. See, 
democracy is coming anyway. And the analogy I used for the Arab 
Spring is 1848 Europe, where one monarchy flipped, but the 
momentum against monarchies began. That took decades. And there 
was a lot of chaos in mid-9th century Europe to--even if they 
are not ready for democracy, the youth populations are. See? 
And this is what we have to deal with. Hungary, youth 
populations wanting democracy, how do we deal with them?
    Mr. Malka. Thank you.
    I think one of the things that we need to think about when 
we pursue a policy: first, clearly state what our interests 
are, clearly state what our objectives are, and not get bogged 
down in process, but also think about outcomes, as well, which 
is what our allies and our enemies often do in a much more 
focused way than we do. But, we need to show long-term 
commitment. We need to promote inclusive politics. But, we need 
to send a signal to the people of the region, to the 
governments in the region, that we care, that we have an 
interest, and that we have a long-term investment plan.
    Part of that is also going to include understanding and 
acknowledging what we cannot change. There are lots of things 
that we are trying to change. There are a lot of outcomes we 
are trying to get to. But, we also have to understand what our 
limitations are, in terms of persuading people like President 
Sisi or other governments that we deal with on a regular basis. 
So, understanding our limitations, but also setting realistic 
objectives, I think, will help guide a more effective policy.
    The Chairman. Well, thank you both. You have been very, 
very good witnesses and obviously interact with each other a 
lot. We appreciate that.
    And the record will be open----
    We want to welcome the Charge again for being here. She 
nodded in approval with some of the things you said, and was 
silent with others, so I do not know if you all want to talk 
with her about some input that she may wish to give, but you 
would have been a great witness today. We thank you for 
participating in the audience, anyway.
    The record will be open, if it is okay, through the end of 
business on Friday. And you know the drill. If you get 
questions, please respond to them fairly quickly.
    But, we thank you both. You have helped us. And, for that, 
we are very appreciative.
    The meeting is adjourned.
    [Whereupon, at 11:51 a.m., the hearing was adjourned.]

                                  <all>
</pre></body></html>
